Report No. D-2010-057                         May 4, 2010




                  Public Works Operations
           at U.S. Army Garrison-Yongsan, Korea
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

BOM                           Bill of Materials
CCK                           U.S. Army Contracting Command-Korea
COR                           Contracting Officer’s Representative
DO                            Delivery Order
DPW                           Directorate of Public Works, U.S. Army Garrison-Yongsan
FAR                           Federal Acquisition Regulation
GPC                           Government Purchase Card
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IGCE                          Independent Government Cost Estimate
KRW                           Korean Won
MATOC                         Multiple Award Task Order Contract
SOP                           Standard Operating Procedure
S2K                           Supply 2000 System
--------------------------- ----




                                   INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DRIVE 

                               ARLINGTON, VIRGINIA 22202-4704 





                                                                                May 4, 2010


   MEMORANDUM FOR COMMANDER, UNITED STATES FORCES KOREA
                  AUDITOR GENERAL, DEPARTMENT OF THE ARMY


   SUBJECT: 	 Public Works Operations at U.S. Anny Garrison-Yongsan, Korea
              (Report No. D-2010-057)

   We are providing this report for information and use. We considered management
   comments on a draft of this report in preparing the final report.

   Management comments generally conformed to the requirements of DOD
   Directive 7650.3; therefore, we do not require any additional comments.

   We appreciate the courtesies extended to the staff. Please direct questions to me at
   (703) 604-8866 (DSN 312-664-8866).




                                                Ih-LJ~CUJYO
                                                Alice F. Carey
                                                Acting Assistant Inspector General
                                                Readiness, Operations, and Support
Report No. D-2010-057 (Project No. D2009-D000JB-0160.000) 	                           May 4, 2010

             Results in Brief: Public Works Operations at
             U.S. Army Garrison-Yongsan, Korea

                                                        See Appendix B, Summary of Potential Monetary
What We Did                                             Benefits, for the estimated benefits of $569,851.
We determined whether controls were in place and
working as intended for the U.S. Army Garrison-         What We Recommend
Yongsan Directorate of Public Works (DPW) to            DPW should:
provide goods and services to its customers in the
most effective and efficient manner. We examined           		 Eliminate unneeded contract line items and
DPW contract actions of $5.9 million, purchases                maintain documentation for estimated item
from the Prime Vendor of $1 million, and                       quantities for future contracts.
Government purchase card transactions of
$393,000.                                                  		 Ensure description of work on delivery
                                                               orders is internally consistent, contract
What We Found                                                  actions are well documented, and inspections
                                                               are complete and comprehensive; use the
DPW-Yongsan had established controls to reduce                 most cost-effective method for performing
some of the risks found during prior audits at other           required tasks; and use realistic and
DPWs in Korea. However, additional internal                    consistent criteria for including or measuring
controls over operations needed improvements.                  incidental costs.
   		 DPW did not estimate requirements for               		 Establish procedures and controls to ensure
       indefinite-delivery, indefinite-quantity                purchases from the prime vendor are cost-
       contract solicitations on a reasonable basis.           effective, and use alternative sources if
                                                               practical when more economical.
   		 DPW did not exercise delivery orders to
       achieve maximum effectiveness and                   		 Re-emphasize and enforce requirements for
       efficiency, which resulted in questionable              using Government purchase cards.
       costs of up to $924,000, including $79,851          		 Ensure that real property records are updated
       in overpayments to contractors to be                    completely and timely on completion of
       recovered.                                              projects.
   		 DPW’s heavy reliance on the prime vendor            		 Recover overpayments of $79,851 from
       for purchases of supplies resulted in                   contractors.
       expenditures of $347,467 (53 percent) more
       than the fair market value for a sample of       The U.S. Army Contracting Command-Korea
       64 purchases.                                    should award a new general building repair
   		 DPW did not properly document                    contract, begin evaluating price reasonableness for
       Government purchase card transactions,           specific contract line items, reject contract bids
       ensure separation of duties, avoid third-        with unbalanced pricing, and make oversight
       party vendors, or obtain property book           checklists for Government purchase cards more
       officer approval when required.                  complete.
   		 DPW did not always update real property
       records or obtain as-built drawings from         Management Comments and
       contractors on completion of work.               Our Response
In providing contracting support, the U.S. Army         Management generally agreed with our
Contracting Command-Korea did not determine             recommendations and provided responsive
unbalanced pricing or price reasonableness in           comments indicating actions taken or planned to
accordance with the Federal Acquisition                 implement the audit recommendations.
Regulation. As a result, the current general repair     Management also agreed with our potential
contract cost $219,192 (41 percent) more than the       monetary benefits. Please see the
second lowest offer for the first 11 delivery orders.   recommendations table on the back of this page.
Report No. D-2010-057 (Project No. D2009-D000JB-0160.000)            May 4, 2010

Recommendations Table

              Management               No Additional Comments
                                              Required
         Commander, U.S. Army              A.1, A.2, and D.2
       Contracting Command-Korea

      Director of Public Works, U.S.   A.1, A.3, B.1, B.2, C, D.1,
      Army Garrison-Yongsan, Korea            and E.1-E.3
Table of Contents

Introduction                                                            1     


      Objectives                                                        1     

      Background                                                        1      

      Review of Internal Controls                                       3      


Finding A. Contracting Requirements and Procedures for Indefinite- 

   Delivery, Indefinite-Quantity Contracts                              4         

      Recommendations, Management Comments, and Our Response           11 


Finding B. Execution of Contracts                                      13         

      Recommendations, Management Comments, and Our Response           28 


Finding C. Use of the Prime Vendor                                     30

      Recommendation, Management Comments, and Our Response            36 


Finding D. Use of Government Purchase Cards                            37


      Recommendations, Management Comments, and Our Response           40 


Finding E. Documentation of Contractual Work Performed                 41


      Recommendations, Management Comments, and Our Response           43 


Appendices

      A. Scope and Methodology                                         44         

            Prior Coverage                                             46 

      B. Summary of Potential Monetary Benefits                        47 


Management Comments

      U.S. Army Installation Management Command                        48

      U.S. Army Expeditionary Contracting Command                      56     

Introduction
Objectives
The objective was to determine whether controls were in place and working as intended
for the Directorate of Public Works at U.S. Army Garrison-Yongsan (DPW) to provide
goods and services to its customers in the most effective and efficient manner.
Specifically, we evaluated DPW operations and associated procurement support by the
U.S. Army Contracting Command-Korea to determine whether contract requirements
were valid and accurately stated, the most effective and efficient means for procurement
were used, supplies and services purchased were received, and applicable procurement
policies and regulations were followed. See Appendix A for a discussion of the scope
and methodology and prior coverage related to the objectives.

Background
DPW is a subordinate unit of the U.S. Army Installation Management Command-Korea
Region. DPW supports facilities in Area II: Yongsan and the surrounding area, such as
Camp Market, Camp Tango, and K-16. The Installation Management Command-Korea
Region also operates three other Directorates of Public Works at the Army garrisons at
Red Cloud (Area I), Humphreys (Area III), and Daegu (Area IV). DPW support includes
construction, repair, and maintenance of facilities and infrastructure; environmental
management, and fire prevention and response. Real property of Area II reported in
March 2009 included 1,400 facilities and infrastructure totaling about 10 million square
feet at 13 installations.

DPW has six divisions: Engineering Services, Environmental, Business Operations and
Integration, Operations and Maintenance, Master Planning, and Housing. As of February
2009, DPW was authorized 40 Army civilians and 388 Korean nationals; it had 24 Army
civilians and 416 Korean nationals employed and 92 Korean Support Corps personnel as
a support force.

DPW expended $78.4 million in FY 2008, which included $30.9 million for utilities,
$28.5 million for contracts, $12.3 million for supplies and equipment, and $6.7 million
for labor and related expenses. Our audit focused on construction-related (upgrade,
renovation, and maintenance) indefinite-delivery, indefinite-quantity (IDIQ) contracts
and multiple-award task order contracts (MATOCs) managed by DPW, which amounted
to $5.6 million for FY 2008. Our audit also focused on supplies purchased from the
prime vendor and purchases made with Government purchase cards ($2.6 million during
FY 2008). See Appendix A for a more detailed discussion of Scope and Methodology.

Indefinite-Delivery, Indefinite-Quantity Contracts
An IDIQ contract is a delivery order (DO) contract awarded for an indefinite quantity of
supplies or services within stated limits for a fixed period. The Government issues a DO
to place an order for a specific requirement. The Government uses an IDIQ contract
when the quantity and delivery of supplies or services cannot be predetermined.


                                            1


Therefore, the Government does not procure any supplies and services at the time of
contract award but states a minimum or maximum quantity it will procure during the
contract period. Quantities may be stated in units or as dollar values. During the audit
period, DPW was using IDIQ contracts awarded for the repair and upgrade of general
buildings; family housing repair, upgrade, and turnover maintenance; pavement; roofing;
painting; fencing; and demolition.

Multiple-Award Task Order Contract
A MATOC is a task order contract awarded to multiple contractors from a single
solicitation for the same or similar supplies or services. The Government issues a task
order to acquire performance of tasks during the period of the contract, and each
contractor competes for the task order issued. Therefore, a MATOC promotes a
competitive environment even after contract award. Federal Acquisition Regulation
(FAR) 16.505 (b) requires agencies to provide all awardees fair opportunity to be
considered for each order exceeding $3,000 issued under MATOCs. The Government
can take advantage of the benefits of competition to obtain lower prices, better quality,
reduced time from requirements identification to award, and improved contract
performance in satisfying customer requirements. DPW had 12 MATOCs for
performance throughout Korea during the audit period.

U.S. Army Contracting Command-Korea
The 411th Contracting Support Brigade, U.S. Army Contracting Command-Korea (CCK),
is the executive agent responsible for providing acquisition services to the United States
Forces Korea, including centralized local purchasing, contracting support, and contract
administration. CCK provided contracting support for DPW to acquire supplies, services,
and construction.1 Specifically, CCK awarded MATOC and IDIQ contracts and issued
task orders or DOs against the contracts for specific jobs. CCK provided contract
administrative services to ensure effective execution of contracts, task orders, and DOs.
CCK also provided training for DPW contracting officer’s representatives (CORs), who
were usually inspectors.

Prior Audits of the Directorate of Public Works in Korea
The U.S. Army Audit Agency audited DPW operations in Area I (North of Seoul) during
2004 and 2005 and published two reports (see Prior Coverage in Appendix A) with
significant findings showing widespread abuse: about $6 million in overstated
requirements, actual and potential overpayments of contracts, and noncompliance with
standard acquisition procedures. These findings were directly related to a lack of
effective oversight of IDIQ contracts, Government purchase cards (GPCs), and the Prime
Vendor Program. The Internal Review and Audit Compliance Office of the United States
Forces Korea also performed several reviews and provided assistance to the Major
Procurement Fraud Unit of the Army Criminal Investigation Command, which found
serious internal control deficiencies indicating fraud, waste, and abuse. As a result of the


1
 The Far East District of the U.S. Army Corps of Engineers also does extensive contracting for large
construction and renovation projects in Korea.


                                                    2

audits, reviews, and investigations, several Government employees and contractors were
indicted for criminal conduct, and the Government debarred several contractors.

Our audit did not identify the large overpayments or overstated requirements found in
previous audits because management was taking actions to correct many of the internal
control weaknesses found in prior audits and reviews. However, this audit confirms the
continued need for vigilance and supervision of DPW operations to reduce the potential
for fraud, waste, and abuse and ensure the Government is obtaining the best value for
funds expended.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DPW procures significant
amounts of supplies, services, and construction for its customers. However, DPW’s
internal controls are not sufficient to ensure that Government needs are met in the most
cost-effective way and that the Government receives what it pays for.

DPW needs to strengthen procedures and controls over the procurement process while
promoting due diligence and adequate supervision. Specifically, DPW should strengthen
controls over the process of establishing requirements, selecting the procurement method
and source of supply, and overseeing work performance to optimize its operations in the
best interest of the Government. Additionally, DPW needs to improve documentation
and ensure compliance with guidance. Implementing Recommendations B.1, C, D.1,
E.1, and E.2 will improve DPW internal controls. DPW took action during our audit to
have the contract for roofing modified to reduce the cost of scaffolding. This control
could provide a monetary benefit of up to $490,000 as shown in Appendix B. We will
provide a copy of the report to the senior official responsible for internal controls in the
U.S. Army Installation Management Command-Korea Region.




                                             3


Finding A. Contracting Requirements and
Procedures for Indefinite-Delivery, Indefinite-
Quantity Contracts
Requirements estimates that DPW established for IDIQ contract solicitations were not
reasonable or supported. DPW did not have a sound basis for estimating the quantity of
contract line items or requiring U.S.-origin materials. Additionally, price analysis that
CCK conducted for contract award was not adequate. CCK awarded the contract based
on the total contract price without determining whether pricing was balanced as required
by the FAR, relying on only one method for determining the reasonableness of the
contract price although unbalanced pricing called for further analysis. These deficiencies
occurred because DPW did not assess contract requirements based on historical use and
because the excessive number of contract line items hindered CCK from effectively
evaluating the contract price in accordance with the FAR. As a result, the Government
was not obtaining the best value for its contracting efforts, as demonstrated by the current
IDIQ contract for repair and upgrade of general buildings, which cost DPW about
$219,192 (41 percent) more than the second lowest offer for the first 11 DOs issued from
January through March 2009.

IDIQ Contract Overview
DPW has used an IDIQ contract to accomplish many general building repairs, upgrades,
and maintenance (General Repair Contract) for its customers. The Government spent
$6.3 million on the previous General Repair Contract during the 4 1/2-year period ending
in March 2008. On January 14, 2009, CCK awarded the current IDIQ contract
(W91QVN-09-D-0004) for a maximum of $12.4 million to cover the base year plus
4 option years. The contract contains 1,925 tasks, which have specific contract line item
numbers assigned. (We will refer to these tasks as “line items” in this report.) The line
items include a description of the work to be done, such as installing, replacing,
removing, or reinstalling specific items, as well as quantities of materials needed to do
each task. Contractors competing for the contract provided their unit price for each line
item and the aggregated price for the estimated quantity provided by DPW. CCK
awarded the contract to the company that provided the lowest total price. The
Government paid the contractor for completion of DOs under the contract, which
identified specific tasks (line items) to be performed for each DO. As of March 31, 2009,
DPW had issued 11 DOs totaling $537,674 under the General Repair Contract.

Requirements Estimates
DPW prepared requirements estimates for contract solicitation. Estimates included line
items and the estimated quantity of each line item needed. Certain line items also showed
that the contractors must use U.S.-origin materials. However, DPW did not always have
a sound basis for estimating quantities for line items or requiring use of U.S.-origin
materials.




                                             4


Number of Line Items
The current General Repair Contract had 1,925 line items. The large number of line
items hindered DPW estimators from estimating the costs of each line item based on
market research or on any other rational basis. The estimator responsible for cost
estimates admitted that it was not feasible for him to conduct market research for such a
large number of line items. Therefore, he established cost estimates for the majority of
line items using the previous cost estimates adjusted for inflation. CCK personnel also
stated that the large number of line items hindered the contracting officer from
conducting detailed evaluations of contract pricing for source selection or price
reasonableness. DPW should review historical and estimated future line items and delete
line items not expected to be used, to facilitate contract proposal evaluation so that CCK
can obtain the most cost-effective contract.

Estimated Quantities for Each Line Item
Unrealistic estimates of the quantities to be used for each line item also hindered DPW
and CCK from obtaining the most cost-effective General Repair Contract. DPW often
estimated the same quantities for various line items regardless of the historical or
expected usage, adversely affecting source selection. For example, the contractor was
able to provide the lowest overall price and be selected to perform the IDIQ contract by
offering unrealistically low prices on items that presumably would not be used, as
illustrated below.

   		 DPW estimated it would need 10 each of 7 different sizes (ranging from 10 to 100
       tons) of air-cooled condensing units. However, the contractor provided a realistic
       price only for the 40-ton unit at $7,812. The unit prices shown for the other six
       sizes were from $.85 to $3.45, which were totally unrealistic. The total
       independent Government cost estimate (IGCE) for the seven line items was
       $1.4 million, while the contractor price for all these was only $78,219.

   		 DPW estimated the contractor would need to replace 10 each of 7 types of air-
       handling units from 10 to 100 tons at a total cost of $2 million for 70 units.
       However, the contractor, presumably not expecting to have to replace any of these
       units, showed a total of only $121 for replacing all 70 units.

We also noted unrealistic quantities for various line items in a proposed contract to be
used by the DPW Housing Division for maintenance and repair of family housing units.
For example, review of DOs under the Family Housing IDIQ contract
(W91QVN-04-D-0023), set to expire at the end of FY 2009, showed that DPW always
requested two coats of paint for both exterior and interior painting. However, the bidding
schedule sent to prospective contractors showed that DPW estimated that contractors
would be required to paint 40,000 square meters (for interior) and 20,000 square meters
(for exterior) with one coat of paint. According to the bidding schedule, only half that
quantity would be required for two coats of interior and exterior painting. DPW
personnel in the Housing Division stated they did not have a basis for these figures but
used information that was shown on the previous Family Housing IDIQ contract
negotiated more than 4 years ago.


                                            5

Requirements for U.S.-Origin Materials
DPW required use of U.S.-origin materials for certain line items; however, it did not
always have a sound basis for the requirement. For example, DPW prepared an IGCE for
a new IDIQ contract for repair and maintenance of family housing. The IGCE that DPW
prepared for the contract solicitation required all 22 line items for various paints to be of
U.S.-origin materials. Discussion with the DPW estimator who prepared the IGCE
disclosed that he did not have a valid basis for this decision. The current IDIQ contract
for repair and maintenance of family housing units did not require use of U.S.-origin
paints, and discussion with painters indicated that they used Korean-made paints.
Requiring the use of U.S.-origin materials, when not needed, could cause the contractor
to unnecessarily increase the price for the contract.

DPW could reduce the efforts required for CCK to evaluate contract proposals by
furnishing more reasonable estimates for contract requirements. Additionally, DPW
could prevent potential increases in contract price by requiring use of U.S.-origin
materials only when needed. DPW should reassess the items and quantities required to
fulfill the recurring requirements for repairs and maintenance.

Analysis of Pricing
The source selection process to award the current General Repair Contract was not
adequate to provide goods and services in the most cost-effective manner. As a result, the
contract cost DPW about $219,192 (41 percent) more than the second lowest offer for the
first 11 DOs issued from January through March 2009. Four other competitors’ prices
were also lower than the contract for the 11 DOs. CCK awarded the General Repair
Contract to the lowest priced, technically acceptable offer. CCK determined the lowest
price based on the total contract price for the estimated quantities of 1,925 line items. We
compared prices of the contract and eight competing offers, determined to be technically
acceptable by CCK, for the 11 DOs issued from the contract award through March 31,
2009. As shown in Table 1, five of the eight unsuccessful offers would have met the
requirements at a lower cost to the Government than that of the contractor CCK selected.

    Table 1. Comparison of Prices on IDIQ Contract With Unsuccessful Offers
                                                               11 DOs
      Offer              Total Price
                                                   Total              Difference
                                                                               Percent
Winning Contract         $2,478,767           $537,674           Amount
                                                                                 Less
2nd lowest offer          2,656,465            318,482            $219,192        41
3rd lowest offer          2,787,043            524,855              12,819        2
4th lowest offer          2,911,891            488,849              48,825        9
5th lowest offer          3,214,211            530,703               6,971        1
6th lowest offer          3,570,477            522,430              15,244        3




                                             6


Balance
The winning contractor provided the lowest aggregated price, even though many of its
prices for specific line items were higher than competing offers, for two major reasons.
The contractor provided unreasonable, unbalanced pricing, and the quantities of line
items estimated by DPW without a sound basis exacerbated the effect of unbalanced
pricing on the total contract price.

The contract showed nominal prices for the line items that presumably would be used
less, if at all. For example, the contractor prices were extremely low for “installing”
new walls, doors, ceilings, windows, and doors—so low that the contractor would default
if all DOs required only installing the various items. However, the contractor priced
“replacing” the same items much higher (presumably because most of the work to be
done involved replacing rather than installing). We identified 112 instances in which
“replacing” would cost the Government more than “installing” by at least 1,000 percent.
Many of the contractor’s prices were ridiculously low on installation as shown in
Table 2.2

              Table 2. Comparison of Installation and Replacement Prices
                                                                                 Difference
             Item                    Installation       Replacement                      Percent
                                                                              Amount
                                                                                         Higher
Bored type lockset for
                                         $ .15            $ 189.00             $188.85        125,900
office door
Vanity cabinet,
700 millimeters (mm) wide
by 490 mm deep                            7.05              845.74               838.69        11,896
by 760 mm high with
marble top
Metal urinal baffle                       1.58              413.10               411.52        26,045
Asphalt strip shingle and
                                          0.24               66.00                65.76        27,400
2-ply asphalt felt
Hood for wall cabinet,
                                          0.85              316.24               315.39        37,105
high-glossy finish
Radiator, 300 mm deep by
600 mm high with wooden                   0.06               88.58                88.52       147,533
cover




2
 The contractor’s prices are always shown in Korean won (KRW) in contracts. In this report we usually use
KRW when comparing prices from different contracts because of large fluctuations in the exchange rate
during the audit period. However, we use U.S. dollars when comparing prices in the same contract (as
shown in Table 2) to make it easier for the reader to understand.


                                                    7
Another pattern of unbalanced pricing used by the contractor to obtain the lowest
aggregated price on his proposal was to provide higher prices for certain items and
unreasonably low prices for similar items that presumably would not be used or would be
used rarely. Examples of unbalanced pricing include the following.

    		 The contractor priced line items for replacing a ceiling-mounted air-conditioning
        unit to cool 534 square feet at $2,934.13, but priced a larger air-conditioning unit
        rated to cool 712 square feet at only $31.85.

    		 The contractor priced line items for replacing 12.5-millimeter-thick gypsum
        wallboard at $21.22 per square meter, but replacing a 13-millimeter–thick, water-
        resistant (which would be expected to cost more) gypsum wallboard at only $0.10
        per square meter.

FAR 15.404-1(g) states that unbalanced pricing exists when the price of one or more
contract line items is significantly over- or understated, regardless of an acceptable total
evaluated price. The FAR further states that unbalanced pricing may increase
performance risk and could result in payment of unreasonably high prices. “The greatest
risks associated with unbalanced pricing occur when . . . the evaluated price is the
aggregate of estimated quantities to be ordered under separate line items of an IDIQ
contract.” Therefore, all offers with separately priced line items or sub-line items must
be analyzed to determine whether the prices are balanced. As noted, CCK awarded the
IDIQ contract based on the aggregated contract price although pricing for line items was
significantly unbalanced.

Price Reasonableness
CCK also used ineffective methods to determine price reasonableness. FAR 15.404-19
provides seven analytical techniques to determine price reasonableness. Among the seven
techniques, comparison of proposed prices received in response to the solicitation and
comparison of proposed prices with the IGCE were the two analytical techniques that
CCK used in determining price reasonableness of the IDIQ contract.

According to the contract file, CCK compared the total prices proposed in the lowest
offer with those in the second and third lowest offers, as well as with the IGCE. The
comparison showed that the lowest offer was 11.3 percent3 of the IGCE, and disparities
between the lowest and second lowest proposals and between the second and third lowest
proposals were 7 and 5 percentage points, respectively. Based on the small disparities
among the three proposed prices, CCK determined that proposed prices were competitive
and that pricing was fair and reasonable.

However, the disparity between the contract price and the IGCE appeared too large to
support price reasonableness. Further, our comparison of line items between the current


3
 The contractors’ proposals were significantly lower than the IGCE because all contractors proposed
unrealistically low prices for some items that they (presumably) did not expect to have to perform, as
discussed in the report.


                                                     8

and previous General Repair contracts, which the FAR lists as one of the preferred
analytical techniques, showed significant changes in price. From the line items included
in the 11 DOs, we identified 163 line items that the previous General Repair Contract
also included. Of the 163 line items, 55 showed significant price increases, at least
50 percent. Table 3 shows some examples of significant price increases when comparing
items from the current and previous General Repair contracts.

              Table 3. Comparison of Selected Line Items From Previous and 

                          Current General Repair Contracts



                                              Cost in Korean Won
                                                                            Price Increase
                                                     (KRW)
      Contract Line Item            Unit
                                              Previous    Current
                                                                         Amount        Percent
                                              Contract Contract
Prepare metal or concrete          Square
                                             KRW155          KRW412      KRW257         166
surface for painting                Feet
Provide scaffolding,
including lamp, stairs and         Square
                                                       515     4,645         4,130      802
handrail installation and           Feet
removal
Replace junction box,
                                    Each         6,570        30,005        23,435      357
4 square inches
Replace toggle switch
cover or receptacles cover,         Each               975     9,586         8,611      883
2 inches by 4 inches
Replace incandescent lamp
                                    Each         1,851        11,444         9,593      518
bulb, 100-watt maximum
Remove/reinstall existing
                                    Each         3,085       100,797        97,712     3,167
lighting fixture
Remove and reinstall
                                    Each        43,565       216,819       173,254      398
heating fixtures
Replace 25 millimeter by
                                   Linear
100 millimeter wood                                    765     3,102         2,337      305
                                    Foot
baseboard
Replace soap dish
                                    Each         6,947        36,176        29,229      421
(stainless or ceramic)
*
    DPW used a budget rate of KWR1151/US$ for FY 2007 and KRW1025.7/US$ for FY 2008.

In contrast, several line items from the current General Repair Contract used for the first
11 DOs were also significantly less than the previous General Repair Contract. A few
examples of unrealistically low pricing by the current IDIQ contractor are shown in
Table 2.




                                                 9


Another method that could be helpful in evaluating price reasonableness would be to
compare prices on other existing IDIQ contracts with prices proposed for new contracts.
For example, comparison of the IDIQ contract used for family housing maintenance and
repair with the current General Repair Contract showed:

   		 $0.81 per square foot for replacing gypsum board for the walls or ceiling. The
       General Repair Contract charged $1.97 and $2.22 per square foot to replace
       gypsum board for the wall and ceiling, respectively.

   		 $0.34 per square foot to apply two coats of latex paint. The General Repair
       Contract charged $0.81 per square foot to apply two coats of interior latex paint.

We do not consider a comparison of total proposed prices by CCK to be the most
effective method to determine price reasonableness because the contractor used
unbalanced pricing, the IGCE showed unsupported estimated quantities, and the current
General Repair Contract had significantly higher prices than the previous General Repair
Contract.

Management Actions to Obtain Value for Funds
Expended
At the beginning of the audit, DPW managers told us that they were frustrated with using
the current General Repair Contract because they knew prices for many line items were
unreasonable. The Director of the Business Operations and Integration Division at DPW
told us that he had instructed his estimators to use lower priced line items, if practical,
when preparing DOs. However, as shown in Table 1, efforts by DPW personnel to find
line items that met the requirements of work to be done at a reasonable price did not
result in a cheaper price than the prices of competitors who were not awarded the
contract. Because the contractor used unreasonably low prices for many items, it may be
possible for the Government to obtain reasonable prices on future DOs. However, it will
require a significant amount of effort by personnel carefully reviewing each statement of
work (SOW), which normally includes multiple line items, and selecting alternative items
to ensure a more reasonable total price for a DO. However, we do not think such effort
would continue for an extended period of time. DPW should prepare a revised IGCE
with realistic prices and quantities, and CCK should obtain a new contract based on a
line-item analysis to avoid unbalanced prices and perform market research to the extent
practical to ensure that contract prices are reasonable.

Conclusion
DPW and CCK procedures for preparing contract estimates and evaluating contract
proposals for IDIQ contracts did not result in the best prices for the Government. If
DPW and CCK are able to work together to implement the recommendations in this
finding, the Government should be able to reduce future contract costs and put such funds
to better use.




                                            10


Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Commander, U.S. Army Contracting Command-
Korea, and the Director of Public Works, U.S. Army Garrison -Yongsan:

     a. Not exercise the option to renew the current General Repair Contract
(W91QVN-09-D-0004).

       b. Work together on market research, reviewing similar contract line items
on other contracts and on prior contracts to evaluate price reasonableness for new,
indefinite-delivery, indefinite-quantity contracts.

U.S. Army Expeditionary Contracting Command Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command
generally agreed in comments provided on behalf of the Commander, U.S. Army
Contracting Command-Korea. The U.S. Army Contracting Command-Korea will not
exercise the option to renew the current General Repair Contract. However, instead of
awarding a new contract as recommended, the U.S. Army Contracting Command-Korea
will utilize an existing Multiple Award Task Order Contract to meet the needs of general
repair projects. The Executive Deputy also noted that Recommendation A.1.b. is only
one tool that can be used in determining price reasonableness.

U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and DPW plans
to prepare a new General Repair IDIQ contract for award in the summer of 2010.

A.2. We recommend that the Commander, U.S. Army Contracting Command-
Korea:
       a. Evaluate the reasonableness of prices for specific contract line items when
awarding new, indefinite-delivery, indefinite-quantity contracts rather than
awarding contracts based on the total price.

U.S. Army Expeditionary Contracting Command Comments
In comments provided on behalf of the U.S. Army Contracting Command-Korea, the
Executive Deputy to the Commanding General, U.S. Army Materiel Command agreed
that a price evaluation for all contract line items should have occurred to determine the
existence of unbalanced pricing. The U.S. Army Contracting Command-Korea now has
a Cost and Price Analyst and has instructed contracting officers to use this analyst in
evaluating pricing of contract line items.

       b. State in future contract solicitations that significant unbalanced pricing
for individual contract line items may cause the offers to be rejected.


                                            11

U.S. Army Expeditionary Contracting Command Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command
agreed, and the required language is now incorporated in contract solicitations.

      c. Obtain a new General Repair indefinite-delivery, indefinite-quantity
contract using the most effective procedures to ensure prices are balanced and
reasonable.

U.S. Army Expeditionary Contracting Command Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command
stated that CCK does not intend to exercise the option to extend the General Repair
contract. There is a MATOC already in place for construction projects that can meet the
needs of general building repair projects.

A.3. We recommend that the Director of Public Works, U.S. Army Garrison-
Yongsan, carefully review contract line items and the estimated quantities of each
item in proposed indefinite-delivery, indefinite-quantity contracts, delete line items
not expected to be used, and maintain supporting documentation for both the
estimated quantities of line items and the necessity for U.S.-origin materials to be
included in such contracts.

U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and stated that
DPW will reduce the number of contract line items in the new solicitation and maintain
supporting documentation for both the estimated quantities of line items and the necessity
for U. S.-origin material in future IDIQ contracts.

Our Response
The comments are responsive, and the proposed actions meet the intent of the
recommendations.




                                           12


Finding B. Execution of Contracts
DPW could perform its mission of maintenance, repair, and construction more effectively
and efficiently by making improvements in establishing contract requirements,
overseeing and using contracts, and documenting and inspecting contractual
performance. As a result of the deficiencies found, we identified cost reductions of up to
$924,000 that may have been achieved.

DPW Use of Contracts to Perform Its Mission
To perform its mission of repair, renovation, and maintenance of facilities and
infrastructure for its customers, DPW uses a combination of contractor and in-house
employees. DPW employees normally focus on minor repairs and maintenance, while
contractors perform larger construction, renovation, and repair projects. For contracted
work, DPW usually uses a general repair IDIQ contract for projects that involve more
than one type of work and a family housing IDIQ contract for renovation, maintenance,
and repairs of family housing units. DPW also uses four4 major IDIQ contracts for
specific types of work—pavement, roofing, painting, and fencing. Additionally, DPW
uses MATOCs for larger projects that also require the contractor to provide some
architectural or design work.

General Repair Contract
In the 17 months ended February 2009, DPW completed or scheduled for completion
169 DOs totaling $3 million under contract DABP01-03-D-0060 (previous General
Repair Contract) for the repair and upgrade of general buildings . We selected for review
the 31 DOs costing more than $35,000 each, which totaled $1.4 million, and found areas
where DPW could have improved procedures for establishing requirements, documenting
contractor performance, and verifying work performed, which may have reduced costs by
up to $114,228.

Delivery Order Requirements
Estimators in the DPW Business Operations and Integration Division were responsible
for preparing the SOW and associated drawings of work to be performed for each DO.
Estimators were also responsible for selecting line items from the awarded IDIQ contract
and determining quantities of each line item to purchase. However, estimators were not
always consistent or accurate in establishing requirements for DOs to serve their
customers.

Uniformity in Contract Documents
Estimators did not always accurately define requirements. We found that 19 of 31 DOs
showed discrepancies between the requirements stated in the SOW and the drawings and
line items. In most cases, we were unable to determine the specific dollar effect of these


4
 DPW also uses an IDIQ contract for demolition of buildings, but the contractor had only three small DOs
during the 17 months ended February 2009, and we omitted this IDIQ contract from our review.


                                                   13

discrepancies, or the effect is shown in other sections of this finding. However, the
following are discrepancies that identified potential overpayments.

       		 The SOW for DO 403 stated 475 square feet of floor tiles needed to be
           replaced, but the line item for floor tiles showed 667 square feet. Potential
           overpayments are included in “Ceramic Floor and Wall Tiles,” below.

       		 DO 382 included a line item to purchase four vanity cabinets, but the SOW
           stated that the customer would provide them. The Government potentially
           overpaid $2,918.

       		 DO 349 contained line items for installing and reinstalling insulation for the
           same ceiling. The excess cost was $1,068.

Ceramic Floor and Wall Tiles
Of the 31 DOs, 19 included renovation of toilets, showers, and a swimming pool at a cost
of $223,151 for installation of the tile. CCK modified the contract at DPW’s request to
include U.S.-origin tiles at a significantly higher cost than the tiles in the original
contract, as shown in Table 4.

                 Table 4. Cost Comparison of U.S. and Korean Tile
                                  Cost per Square Foot
                                                                            Percent
     Type of Tile        Original Contract,    Modified Contract,           Increase
                            Korean Tile             U.S. Tile
         Floor                KRW7,204            KRW12,414                    72
         Wall                     7,342                11,415                  55


According to DPW personnel and the contract file, the original tile did not meet Army
Technical Standards 9310.2.1.1 and 9310.2.1.3. However, no one was able to explain,
and there was no documentation to show, how those specific standards were not met. Of
the 19 DOs audited, 13 included the higher priced U.S.-origin tiles. The remaining six
DOs used Korean tiles; however, two of the six DOs used different types of Korean tiles
costing 11-13 percent higher than the tile in Table 4. If DPW had requested the tile
shown in the original contract for the DOs audited, it could have reduced costs from
$223,151 to $161,097, a reduction of $62,054 (28 percent). Tile not meeting required
standards should not be used merely because it is more economical. However, as shown
above, some DOs continued to use Korean tiles, and the Family Housing IDIQ contract
did not require U.S. tile. This suggests that the modification may not have been needed
or the more expensive tile was used more than necessary.

In addition, the Government overpaid the contractor by at least $1,000 each for 9 of the
19 DOs because the contractor installed fewer tiles than required by the DOs. Our
measurements of actual tiles in the toilets and showers showed shortages totaling


                                            14


approximately $27,700 for the nine DOs. DPW should ensure the contractor is not
overpaid for the work performed. When significant discrepancies occur, DPW should
request that the DOs be modified. We also noted during our site verification that all of
the toilets and showers had wall tiles installed up to the ceiling. It is understandable to
install wall tiles to the ceiling for showers. However, we do not consider it cost-effective
to always install wall tiles in toilets, especially when it cost 7 to 10 times as much as
replacing the walls with water-proof gypsum board and paint.

Incidental Costs
Estimators were inconsistent in including incidental costs for ceiling replacement and
wall painting. An estimator stated that some estimators added scaffolding and surface
preparation as separate line items from main tasks such as ceiling replacement and wall
painting, while others viewed them as an integral part of such main tasks and did not
include separate line items for the incidental tasks. The estimators did not maintain
documentation for the basis of these decisions. For example, DO 349 included
scaffolding requirements costing $6,700 (presumably to install a ceiling) for eight times
the square footage of the ceiling. However, another DO prepared by the same estimator
included scaffolding that would cover only 23 percent of the ceiling. Estimates for
surface preparation for painting ranged from 25 percent to more than 100 percent of the
surface to be painted.

Inspection of Contract Performance
Inspectors in the Engineering Services Division were responsible for monitoring contract
performance, including conducting the final inspection before acceptance. They were
also responsible for certifying performance before payments were made. However,
inspectors did not always ensure that the Government received the services and supplies
for which it paid, as illustrated in the following bullets.

   		 Nonperformance. We did not perform a 100-percent inspection of work required
       for the 31 DOs selected. However, during our measurement of latrine floors and
       walls, we physically verified some items that could be counted or measured. As a
       result, we found that the contractors did not install a few items required in the DOs,
       as shown in Table 5.

                              Table 5. Items Not Installed
                   Item                      Quantity                   Cost
        Vanity cabinet                        11 units                 $8,024
        Door closer                           15 units                  1,418
        Mirror                             48 square feet                 483
        Glass pane                         244 square feet              8,130
        Card key lock set                      4 units                  1,307
        Miscellaneous other items             27 units                  1,126
          Total                                                       $20,488



                                             15


   		 Nonconformance. Some line items required use of U.S.-origin materials.
       However, we found a few local materials being substituted for items specified in
       the DOs. The item most frequently substituted was Korean-made lock sets.
       However, we were not able to assess the impact of substitutions on costs or
       performance.

The COR for the General Repair Contract stated that DPW conducted inspections before
acceptance of completed DOs and invited representatives from various DPW branches
such as real property, carpentry, electrical, and plumbing, as appropriate. Unless these
personnel provided comments, the COR normally accepted the work without
qualification. The COR maintained documentation for the final inspection for all 31 DOs
audited. However, none of the documentation listed any of the discrepancies we found or
indicated that any type of deficiency was found. In February 2009, soon after the audit of
DPW began, DPW issued guidance requiring the COR to maintain a roster of personnel
attending final inspections. After we provided the list of items not installed (Table 5) to
the COR, he explained that the contractor had substituted other items for some of the
missing items. However, he did not maintain documentation regarding such
substitutions.

Family Housing Contract
DPW issued or completed 660 DOs totaling $3.64 million for the 17-month period
ending February 2009 for the Family Housing Repair, Upgrade, and Turnover
Maintenance IDIQ Contract W91QVN-04-D-0023 (Family Housing Contract). During
the audit, we focused on the 101 DOs associated with painting and roofing, which cost
$805,830. We found that DPW could have saved up to $433,703—$371,315 by using the
painting IDIQ contract for interior and exterior painting, and up to $62,388 by more
carefully reviewing DOs related to roofing. CCK awarded a new Family Housing
Contract to begin in October 2009. Any potential monetary benefits will be based on
new prices, the amount of work required, and the readiness and ability of DPW to
implement audit recommendations.

Delivery Orders for Painting
DPW completed 87 DOs for painting the exterior and interior of family housing units
during the 17 months ended February 2009 at a cost of $596,309. DPW could have
reduced costs by up to $371,315 by using a less costly existing contract.

Exterior Painting
DPW used the Family Housing Contract to paint 74 family housing units or duplexes at a
cost of $171,067. If DPW had used the painting IDIQ contract to paint the exterior of
these housing units, we estimate the cost would have been $63,251 for a total cost
reduction of $107,816. The estimated savings was based on large differences in the costs
for line items as shown in Table 6.




                                            16


                      Table 6. Comparison of Line Item Costs
              Description of Work         Cost per Square Foot
                                         Family         Painting
                                        Housing         Contract
                                        Contract
             2 coats of exterior paint          KRW378           KRW176
             Scaffolding                           2,106             113
             Surface preparation                     101              34
DPW personnel stated that they had not considered using the IDIQ painting contract
because it was much easier to use the Family Housing Contract for all related work on
family housing units. However, exterior painting does not have to be done only during
the short time a housing unit is vacant. The savings could have been even larger if some
of the square footage of surface preparation included in the DOs was not needed.

Interior Painting
DPW used the Family Housing Contract to paint the interior of 115 units at a cost of
$425,242. If DPW had used the painting IDIQ contract to paint those units, the estimated
cost would have been as low as $161,743, for a total cost reduction of $263,499
(a 62-percent reduction). DPW personnel stated that they did not consider using the
painting contractor because of the logistical problems from having two contractors in a
family housing unit at the same time performing painting, routine repair, turnover
maintenance, and cleaning. We agree that the logistical problems would be difficult to
deal with because of the need to move a new occupant in quickly, and that use of an
additional contractor may not be practical in many instances. However, the significance
of the potential cost reduction suggests that DPW should at least consider use of a less
costly method of painting on occasion.

Our audit of the DOs for interior painting also showed a need for closer scrutiny of the
line items used. For example, when preparing DOs for interior painting of family
housing units, DPW personnel could choose from several line items in the Family
Housing Contract, as shown in Table 7.

                Table 7. Contract Costs for Using Various Line Items
                                                                 Excess Cost From Using
                                                   Cost per        Generic Line Item
Line Item              Description
                                                  Square Foot
                                                                   Amount         Percent
 402000      Paint, oil, 2 coats                       KRW391     KRW66             17
 402001      Paint, latex, 2 coats                        331          126          38
 402003      Paint, enamel, 2 coats                       350          107          31
 402005      Paint, acrylic emulsion, 2 coats             366           91          25
 402007
             Paint, interior, 2 coats                      457       Not applicable
(Generic)




                                                17


DPW personnel always used line item 402007, which cost KRW457 per square foot for
painting. They explained that they used this line item because the contractor used more
than one type of paint on different rooms of the housing units, and DPW had not
calculated the square footage necessary for each type of paint. However, Table 7 shows
that line item 402007 (a generic line item) used paint that cost from 17 to 38 percent
more than paint from the other line items. DPW could have reduced the $425,000 spent
on the DOs completed during the 17 months ended February 2009 by between $80,000
and $110,000 by using the correct line items. A “generic” line item should not be used in
future DOs unless it is cost-effective.

Surface Preparation for Painting
DPW personnel also normally included from 27 percent (for interior) to 30 percent (for
exterior) of the square footage to be painted as needing surface preparation, at a cost of
about $32,410. They stated that they based the percentage on experience, but did not
have any documentation to support this figure. The COR told us that he did not plan to
continue paying separately for normal interior surface preparation because the DPW
usually repaints housing units approximately every 2 years, and any minor surface
preparation should be included in the cost of painting. He also suggested that the line
item for most painting should include normal surface preparation. DPW should use a
separate line item for surface preparation only in extraordinary circumstances, and base
such costs on some type of documentary evidence.

Delivery Orders for Roofing
DPW issued 14 DOs under the Family Housing Contract to replace roofs from FY 2008
through February 2009 at a cost of $209,521. At the time of our audit, the contractor had
completed the work for 4 of the 14 DOs. We noted the following areas where potential
savings of $16,219 may have been achieved for work completed and $46,169 may be
achieved for work not started at the time of our initial review.

   		 All DOs showed replacing 100 percent of the plywood sheathing under the new
       asphalt roofing. We do not know how much plywood needed to be replaced or
       was replaced for the four completed DOs. The DPW Chief of the Facility
       Structure Branch stated that, based on his experience, 15 to 25 percent of the
       plywood needs to be replaced when installing a new roof. (We recognize that
       some roofs may need up to 100 percent new plywood under the new shingles.) If
       only 25 percent of the plywood sheathing was needed, the Government obligated
       $53,007 more than necessary for these DOs.

   		 All DOs showed separate costs for removing and replacing the plywood
       sheathing. The cost of removing the plywood should be included in the cost of
       replacing the plywood because replacing indicates that the existing plywood will
       be removed. As a result, the Government unnecessarily spent $1,055 for the
       4 completed DOs and obligated another $2,631 for the remaining 10 DOs.




                                             18


   		 DPW personnel at the Housing Division did not maintain documentation to show
       the basis for the square footage of the roofs to be replaced. Of the 14 DOs,
       13 showed 2,600 square feet of roofing to be replaced for each housing unit.
       However, according to the DPW Building and Facility List, the square footage of
       three of the units was at least 10 percent less than that of the other units. If the
       roofing surface was proportional to the square footage of each unit, the DPW
       could have reduced the cost of these three DOs by an estimated $5,695.

In July 2009, we informed DPW of the potential unnecessary costs for the 10 DOs issued,
but not started. However, DPW did not modify the DOs to reduce potential unnecessary
costs. DPW personnel informed us in October 2009 that the contractor had completed
5 of the 10 pending DOs without modification. DPW was canceling the remaining five
DOs.

Pavement Contract
DPW spent $1.1 million on 20 DOs for contract W91QVN-07-D-0031 (Pavement
Contract) for replacing or constructing pavement and related items for the 17 months
ended February 2009. Our audit of the six largest DOs totaling $1.0 million showed that
DPW overpaid for work performed and that the cost charged for debris removal was
questionable.

Overpayments
DPW overpaid $68,750 for five of the six DOs as shown in Table 8.

                    Table 8. Overpayment for Pavement Contract
                DO          Total                      Overpayment
                          Amount Paid             Amount        Percent
                 1            $325,999               None     Not applicable
                 2             120,597             $31,923          26.5
                14             254,854               1,253           0.5
                18              87,318              13,358          15.3
                19              95,074              10,252          10.8
                20             118,927              11,964          10.1
               Total        $1,002,769             $68,750

We calculated the overpayments based on our measurements of the actual square footage
of asphalt pavement and concrete curbs constructed. Of the estimated overpayment for
DO 2, $23,729 resulted from a modification that deleted a portion of the original area to
be repaved, but did not reduce the amount of debris to be removed. When we brought
this discrepancy to the attention of DPW personnel, they began action to recover the
overpayment based on the error in the modified DO. However, they changed the basis of
their estimates for debris removal as shown in the original DO to reduce the amount the
contractor should repay.


                                            19

Final inspection procedures did not include measurement of the area paved, and
accordingly missed the discrepancies we discovered. DPW should establish procedures
to measure areas constructed as part of its inspection to ensure the Government receives
the services and material paid for. In addition, DPW should request CCK to recover
overpayments of $67,497 ($68,750 minus $1,253) for the four DOs that have
overpayments of at least 10 percent.

Debris Removal
The cost of debris removal resulting from installing and replacing pavement and doing
related construction was $636,729, which is 63.5 percent of the total cost of the six DOs
audited. The debris normally contained pavement, sub-base for the pavement (consisting
of gravel), concrete curbs, and soil if new pavement was being installed. DPW
estimators prepared the pavement DOs to include removal of debris based on the
expected amount of pavement and associated components that needed excavation. The
estimators often added approximately 35 percent to the estimated amount of debris
because the debris was not as firmly packed after the contractor excavated it from the
ground.

DPW paid KRW43,802 per cubic meter during 2008 for debris removal in accordance
with the line item in the Pavement Contract, which was relatively high compared with
amounts in other contracts. For example, the cost for disposal in the IDIQ contract
established primarily for building demolition (W91QVN-06-D-6014) was KRW11,610 to
KRW15,076 per cubic meter. A service contract (W91QVN-05-D-0043) used by DPW
for disposal of its concrete, asphalt, tile, soil, and other construction-related debris was
KRW36,210 per cubic meter. However, DPW personnel determined it was not practical
to use other contractors to haul away pavement debris because of problems in
coordinating the work between two contractors.

Because the cost of debris removal was so significant—63.5 percent of the total cost of
the DOs audited—DPW should establish procedures to measure the debris actually
removed and make appropriate adjustments when paying the contractor if the actual
amount is significantly different than what is shown in the DO. One way to accomplish
this would be to keep a tally of the number of dump trucks hauling away debris from the
construction site. The Chief of the Roads and Grounds Branch in DPW required his
personnel to keep a tally of the number of dump trucks removing debris for the disposal
service contract that he administered. As a result, DPW paid the contractor based on the
number of cubic meters (filled dump trucks) actually removed. In negotiating future
contracts for pavement and related work, DPW should require prospective offerors to
incorporate the cost of debris removal in the line item price for installing and replacing
pavement and sidewalks.

Roofing Contract
During the 17 months ended February 2009, DPW issued or completed 27 DOs totaling
$664,533 under contract W91QVN-07-D-0035 (Roofing Contract). However, DPW
personnel did not always effectively use the Roofing Contract to obtain and document the


                                            20


best value for the Government. We found about $276,082 in questionable costs for
roofing DOs, which may have been avoided, including $12,354 in work paid for but not
installed. DPW stated that the contractor has tentatively agreed to return the excess funds
for the work not performed.

Types of Roofing Repairs
DPW estimators preparing the scope of work for DOs did not always use the most
effective and economical method for repairing roofs. Of the 27 DOs, 12 involved repair
of asphalt shingle roofs.5 However, rather than reroofing buildings that had existing
shingles, DPW estimators preparing the DOs required the contractor to cover the roofs
for 4 of the 12 DOs with a special acrylic fluid and reinforcing fabric (manufactured by
Hydro-Stop Inc.6), which cost $37,543 (140 percent) more than completely replacing all
of the plywood and asphalt shingles. For example, DPW paid $22,598 to completely re­
cover one roof with Hydro-Stop materials. However, if the contractor had completely
replaced the existing asphalt shingles and plywood on the roof, the cost would have been
only $9,408.

According to the Chief of the Facility Structure Branch at DPW, who supervised roofing
projects performed by DPW employees, reroofing with new asphalt shingles would
normally last longer than using Hydro-Stop materials, which provide a temporary fix.
The DPW estimator who prepared the scope of work for the DOs could not provide a
valid reason for using the more expensive line items on the IDIQ contract. It appeared
that the higher priced items were used to allow the contractor to make a greater profit
(because the contractor had bid an unrealistically low price for installing asphalt
shingles).

Use of Plywood Under Asphalt Shingles
DPW issued nine DOs to reroof buildings with new asphalt shingles. Seven of these DOs
included replacing at least all of the plywood under the shingles. Three of the seven
DOs included a requirement to install two layers of plywood under the shingles. DPW
modified one of the three DOs to completely delete the replacement of asphalt shingles
on one roof. However, the modification did not delete the requirement for plywood to be
installed under the shingles. As a result, DPW paid $7,661 for work that the contractor
did not do. When we brought this error to DPW personnel’s attention, they began taking
action to recover the funds.

When asphalt shingles are replaced, some of the plywood under the shingles must also be
replaced if it is deteriorated. We do not know the actual amount of plywood replaced
because new shingles covered the plywood. However, it is probable that some of the
plywood did not need to be replaced with one—much less with two—layers of plywood.


5
  Some of the DOs were for repairing roofs that did not have asphalt shingles. In such cases, it may have 

been appropriate to use Hydro-Stop materials.


6
  The IDIQ contractor used a commercial product manufactured by Hydro-Stop Inc. 





                                                    21

Physical inspection of two buildings included in DOs that required the contractor to
replace existing plywood with two layers of new plywood showed the contractor did not
remove the existing plywood and installed only one layer of new plywood. The
contractor has tentatively agreed to return the excess funds, which originally amounted to
$4,693, for this work not performed.

Neither the personnel preparing the DOs nor the COR maintained documentation to show
the amount of plywood that needed to be replaced or was replaced. The Chief of the
Facilities Structure Branch stated that DPW usually replaces approximately 15 to
25 percent of the plywood when reroofing buildings with DPW personnel. DPW could
have saved an additional $7,979 if only 25 percent of the plywood needed to be replaced
for the remaining DOs. DPW personnel preparing a DO do not know the extent of
plywood that will require replacement, but they could modify the DO when the actual
amount is significantly different from the estimate. If large amounts of plywood must be
replaced, DPW personnel should require documentation to support the expenditure.

Contract Line Item for “Scaffolding”
DPW spent $309,000 (46.5 percent) of the cost of the 27 DOs for “scaffolding” used
primarily for fall protection for roofing work. The cost of the scaffolding for this contract
was KRW2,050 per square foot, much higher than the IGCE of KRW1,258 per square
foot in the existing General Repair Contract. The IDIQ contract for painting had a line
item priced at KRW113 per square foot for scaffolding.

Government safety standards require the use of fall protection devices to ensure the
safety of personnel working on roofs. However, scaffolding, which includes a platform
that a worker stands on, is more elaborate than fall protection, which is more of a guard
rail. Therefore, the cost to install scaffolding, shown in Figure 1, exceeds the cost to
install fall protection (Figure 2). After we brought this problem to management’s
attention, they were able to modify the Roofing Contract to significantly reduce the price
of scaffolding and the price of fall protection (single scaffolding) to KRW1,280 per
square foot and KRW551 per square foot, respectively. If the Roofing Contract had used
these prices when the contract began, the Government could have reduced costs by an
estimated $208,663. We commend DPW for promptly obtaining a modification to the
roofing contract. Based on review of the type of work the contractor performed for the
27 completed DOs, we estimate the Government could put funds of up to $490,000 to
better use for the remaining 3 years of this IDIQ contract.7




7
 This amount is based on the maximum of $2 million shown in the contract for the final 3 option years.
The IDIQ contract did not have a minimum amount of work.


                                                   22

Figure 1. Scaffolding Around a Building Figure 2. Fall Protection for Roof Work




Use of Waterproofing
DO 6 included a line item for applying 4,120 square feet of “water repellent coating on
concrete and masonry wall” at a cost of $11,454. However, the building mentioned in the
DO did not have concrete or masonry walls. Visual inspection of the building showed
that a 2-foot strip of water proofing had been installed on the metal seam between the
first and second floors. The 2-foot strip was about 10 percent of the total wall square
footage of the building. The COR stated (and we observed) that the contractor had
repainted all of the exterior walls. The cost of painting the 4,120-square foot exterior
using the IDIQ contract for painting would have been as low as $766. Thus, the
Government may have spent $9,543 more than necessary for this work ($11,454 minus
$766 for repainting and $1,145 for the 10 percent of wall covered with waterproofing).
The estimator or COR could have detected this problem by careful review of the work to
be performed when preparing the DO or inspecting performance of the work as it
occurred.

Use of Government Personnel for Roofing Projects
A new Chief of the Facility Structure Branch arrived in Korea in January 2009. After
noticing that his staff, which is normally responsible for maintenance and minor repairs,
could be more effectively utilized, he started using his staff for reroofing buildings. As
of July 2009, the staff had completed installing new asphalt shingle roofs on 11 buildings.
We commend the effective use of Government personnel rather than contractors when
Government personnel are not utilized to the maximum extent or use of in-house
resources costs less.

Painting Contract
For the 17 months ended February 2009, DPW expended $392,346 for painting and
related work for DOs issued or completed under contract W91QVN-06-D-6031 (Painting
Contract). It appeared that the Government was usually obtaining good value for funds
expended using the Painting Contract. However, we found DPW did not document the
basis for the use of more expensive paints or the amount of surface preparation needed.




                                            23


Use of More Expensive Painting Contract Line Items Numbers
The original contract as issued in August 2006 showed line items for painting two coats
of interior or exterior latex and acrylic paints at a cost of KRW175 to KRW180 per
square foot as shown in Table 9.

                          Table 9. Contractual Costs for Painting
        Line Item                                Description                        Cost per
                                                                                   Square Foot
Original Contract
        0001AD                  Paint exterior concrete, stucco, masonry,          KRW176
                                and wood surfaces with 2 coats of MPI*­
                                10 exterior latex paint
         †0001AE                Paint exterior metal surfaces with 2 coats               180
                                of MPI*-110 exterior high- performance
                                acrylic paint
         0001AG                 Paint interior wall and ceiling surfaces                 175
                                with two coats of MPI*-54 interior latex
                                paint
Modified Contract
       †0001AT                  Paint exterior metal and wooden surfaces                847
                                with 2 coats of MPI*-9 alkyd paint
         †0001AU                Paint interior metal and wood surfaces with             841
                                2 coats of MPI*-47 alkyd paint
         0002AV                 Paint wooden surface with 2 coats of                    560
                                varnish and stain
*Master Painters Institute (MPI) provides identifying numbers for different types of paint.
†U.S.-origin paint.

The cost for applying these paints from the modified contract was three to five times as
much as the paint in the original contract. However, our review of the cost of the new
paints in the modified contract showed the cost of the paint itself was not significantly
different.

Most of the DOs did not require the contractor to paint a large percentage of the areas
with the paints specified in the contract modification. Review of 21 DOs costing at least
$5,000 each showed use of the more expensive paints on only about 7 percent of total
surface. However, DPW personnel who prepared the DOs, which showed the type and
quantity of paint to be used, disclosed that they did not maintain documentation to
support when the contract should use the more expensive paint. We did not try to
calculate the amount of potential savings had the DOs not called for the more expensive
paint in the modified contract. However, the following three examples suggest possible
savings existed.




                                                24

   		 DO 51 required the entire interior of a building to be painted with interior alkyd
       paint (line item 0001AU, at a cost of $15,091) instead of latex paint, which the
       contract priced at about one-fifth of the cost. Personnel who prepared the DO
       could not provide a valid reason why they used this line item for painting the
       entire building.

   		 DO 57 required the contractor to paint about 17 percent of the total square footage
       using exterior alkyd paint, which cost KRW847 per square foot, while the
       remaining exterior was painted with high-performance acrylic costing
       KRW180 per square foot. However, the individual who prepared the requirement
       for use of alkyd paint for 1,420 square feet was unable to provide a reason why he
       selected this paint.

   		 DO 30 modified DO 15 by requiring 8,000 square feet to be painted with exterior
       paint (line item 0001AT) at a cost of KRW847 per square foot (total cost of
       $5,887). However, DO 30 did not show any additional surfaces to be painted, and
       did not decrease the quantity of exterior paint shown in the original DO.

DPW personnel should maintain better documentation showing why more expensive
paints are used, especially when the cost is more than four times the alternative.

Surface Preparation
When preparing DOs for the Painting Contract, DPW personnel normally assumed that
100 percent of the area, regardless of the type of surface to be painted (exterior or
interior), would need surface preparation, which required a separate line item, before the
paint could be applied. However, DPW personnel did not have a basis for this
assumption. Other DPW personnel preparing DOs for the Family Housing Contract
normally use 27 percent and 30 percent for surface preparation for painting interior and
exterior surfaces, respectively. DPW personnel responsible for painting done by
Government personnel stated that, although the amount of surface preparation varies
according to site conditions, it is usually less than 30 percent. If only 30 percent of the
surfaces required surface preparation for the 21 DOs reviewed, the Government overpaid
the contractor by an estimated $21,858. In addition to surface preparation, DPW
personnel added a line item for sandblasting some surfaces (which cost about 13 times
the cost of normal surface preparation) in 5 of the 21 DOs that we reviewed, for a total
cost of about $12,700.

The cost of surface preparation in the Painting Contract was only KRW34 per square foot
(4 to 19 percent of the cost of applying various paints). However, if DPW personnel
routinely and arbitrarily require 100-percent surface preparation, costs could significantly
increase when another contract is used. For example, DPW personnel continued to
routinely show 100-percent surface preparation for the existing General Repair Contract
(which included painting and surface preparation line items). This contract charged
KRW412 per square foot for surface preparation of concrete or metal—12 times as much
as the cost in the Painting Contract. DPW personnel should maintain documentation for



                                            25


the amount of surface preparation needed rather than routinely assume that 100 percent of
the surface needs surface preparation.

Fencing Contract
DPW spent $419,120 under contract W91QVN-06-D-6006 (Fencing Contract) on fence-
related 19 DOs for the 17 months ended February 2009. We judgmentally selected five
DOs totaling $313,549, which showed overpayments of $9,773 as shown in Table 10.
We calculated estimated overpayments to the contractor by comparing the actual length
and height of the fences with the requirements stated in the DOs. Total overpayments for
the five DOs were not significant—only about a 3-percent discrepancy between contract
requirements and actual performance by the contractor.

                   Table 10. Overpayment for Fencing Contract
                      DO      Total Amount Paid       Overpayment
                     2              $179,315              $6,699
                     9                48,336               2,534
                     21               66,127                   0
                     26               12,556                 636
                     31                7,215                (96)
                     Total          $313,549              $9,773

All DOs included documentation showing that the COR conducted final inspections.
However, the final inspection did not include a measurement of the fence. DPW may
have avoided discrepancies in the Fencing Contract if personnel preparing the DOs had
exercised greater care in stating the requirements and if personnel inspecting the
completed projects had verified that the Government received what it paid for.

Multiple-Award Task Order Contracts
DPW had 12 MATOCs to use for facility upgrades and construction throughout Korea.
During the 17 months ended February 2009, DPW carried out 58 task orders totaling
$5.6 million. We selected and audited a task order from each of seven contracts having
transactions over $100,000 for obvious discrepancies that could be seen without
removing completed construction. For all seven task orders, our site verification
disclosed a few minor discrepancies between work required and performed, indicating a
need for more thorough site inspections. The most significant discrepancies were the
following.
   		 A task order required replacing four concrete pads under new boilers and heaters
       installed. The contractor did not replace the existing concrete pads because DPW
       decided doing so was not necessary. However, DPW did not modify the task
       order to reduce the price.




                                           26


    		 The SOW for one task order required the removal of approximately 115 square
        meters of concrete slab. However, measurement of the area showed that the
        contractor needed to remove only 68 square meters. The SOW also required
        80 square meters of concrete sidewalk to be built, but the area of the finished
        sidewalk was only 68 square meters. In both cases, DPW overstated the
        requirements but did not notice the deficiencies when inspecting the work.

We did not find other deficiencies in the MATOC process except for a few indications
that site inspections should be more thorough. Accordingly, we geared our audit efforts
to the IDIQ contracts, which showed more systematic or repetitive control weaknesses.

Conclusion
The problems found during the audit were not as significant as those found in other areas
of Korea during prior audits of DPW operations. However, there is a continued need for
vigilance to ensure the effectiveness and efficiency of operations. The audit identified
areas in all of the major IDIQ contracts where the Government could have reduced costs
and improved operations. As a result, DPW may have incurred as much as $924,000
(rounded to the nearest thousand) in unnecessary costs as shown in Table 11.

                        Table 11. Summary of Costs Incurred That 

                                 May Have Been Avoided 

                                     Costs Incurred That May Have
                        Contract
                                             Been Avoided
                     General Repair               $114,228
                     Family Housing                 433,703
                     Pavement                        68,750
                     Roofing                        276,082
                     Painting                        21,858
                     Fencing                          9,773
                        Total                     $924,394

Most of the potential overpayments or unnecessary costs were related to savings that
could have been realized if DPW had used alternate contracts, materials, or more
carefully reviewed requirements. We do not recommend efforts to recover possible
shortages from the General Repair Contract because it has expired, and potential minor
shortages for other IDIQ contracts were not significant relative to the total amounts of the
DOs audited. However, DPW should attempt to recover $79,851—$67,4978 in
calculated shortages from the Pavement Contract and the $12,354 from the Roofing
Contract for work not performed.


8
  Korean contractors are paid in Korean Won. Therefore, the amount of funds that may be recovered will
be more or less than these amounts based on the exchange rate of the Korean Won when funds are
recovered.


                                                  27

In addition, DPW should establish standard procedures and controls to ensure contract
requirements are accurate, consistent, and cost-effective; conduct thorough inspections
for compliance with contract requirements; and provide better documentation of
contractual actions and actual work performed.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director of Public Works, U.S. Army Garrison-
Yongsan:

     1. Establish procedures, controls, and increased supervision of contracts to
accomplish the following.

             a. Ensure that the statement of work and related drawings of work
required agree with the contract line item numbers for delivery orders issued.

             b. Require complete supporting documentation for the need to issue
contract modifications.

               c. Use realistic and consistent criteria for including incidental costs
such as scaffolding and surface preparation, and ensure that abnormal situations
are well documented.

               d. Require documentation for the estimated amount of plywood that
needs to be installed under shingles, and modify delivery orders for significant
differences between the estimate and the actual amount installed.

               e. Use the most cost-effective method (to include use of less costly
contracts for similar work) for performing required contractual tasks, when feasible
and practical; and document decisions if the most economical contract or contract
line items are not used.

             f. Discontinue using the “generic” contract line item for painting in
the Family Housing contract when other contract line items are less costly.

               g. Establish procedures and controls to measure debris actually
removed for contracts such as the Pavement Contract, where costs are significant.
In future contracts, incorporate the cost of debris removal in the price of the
contract line items for installing or replacing pavement and sidewalks.

              h. Require personnel inspecting the completed contracts to verify that
the contractor has installed the items or quantities called for in delivery orders
when conducting the final inspection.




                                           28

              i. Require personnel preparing delivery orders that include surface
preparation to base and document their decision on physical inspection of the site to
be painted. Discontinue the practice of assuming that all areas to be painted require
100-percent surface preparation and that surface preparation requires a separate
line item.

U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and DPW will
incorporate the recommendations into its standard operating procedures, strictly enforce
their adherence in all operations, and continually educate its work force.

    2. Initiate actions to recover the $67,497 in overpayments from contract
W91QVN-07-D-0031 (Pavement Contract) and $12,354 from contract
W91QVN-07-D-0035 (Roofing Contract).

U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and DPW has
initiated actions to recover the $67,497 in overpayments from the Pavement Contract.
Further DPW now has established procedures requiring the COR to measure the final
pavement thickness and area before final payment is made. As a result of this, DPW has
also recovered an additional $107,922 from the pavement contractor for other delivery
orders. (These DOs were completed after February 2009, and were not included in the
scope of our audit.) DPW also reviewed the Roofing Contract and has recovered $13,332
from the roofing contractor.

The Commander also agreed with the estimate of $490,000 in potential monetary benefits
discussed in the report.

Our Response
The Army comments are responsive, and the proposed actions meet the intent of the
recommendations.




                                           29


Finding C. Use of the Prime Vendor
DPW’s heavy reliance on the prime vendor to acquire local supplies and materials did not
result in the best prices. DPW procured $3.1 million of supplies and materials from the
prime vendor during the 17 months ended February 2009. A cost comparison of
64 sample items costing a total of $1 million demonstrated that DPW could have saved
up to $347,467 if it had procured the items from other sources. DPW usually accepted
the prime vendor’s prices without determining whether they were reasonable because
DPW thought that the prime vendor contract had been competed under the FAR and that
DPW was not required to search for additional quotes. As a result, DPW did not always
obtain the best value when purchasing supplies and materials.

Purchase of Supplies and Materials
DPW used four methods to purchase supplies and materials (supplies) for construction,
maintenance, and repair from FY 2007 through February 2009 as shown in Table 12.

                            Table 12. Total DPW Supply Acquisition

    Source of Procurement            FY 2007           FY 2008          FY 2009             Total
                                                                        Through
                                                                        February
Prime vendor                        $2,008,008      $2,244,930          $842,695         $5,095,633
GPC                                    154,320         314,885            78,358            547,563
PRWeb                                  831,930         430,654           185,228          1,447,813
Standard Army Retail                   193,424         355,686           101,213            650,323
Supply System
 Total                              $3,187,682      $3,346,155         $1,207,494        $7,741,331
Source: U.S. Army Installation Management Command-Korea Region, Directorate for Resource
Management

DPW did not have written criteria mandating the use of a certain method for procuring
supplies. However, DPW usually used the prime vendor or GPC to purchase local items
when it had an urgent need or a high priority and in many other situations. DPW used
PRWeb9 when purchasing local supplies through existing contracts. Use of PRWeb to
purchase supplies and items normally required a contracting lead time of at least 20 days.
If the items were not urgently needed, DPW sometimes used the Standard Army Retail
Supply System to purchase supplies from the United States. As shown in Table 12, DPW
used the prime vendor for the majority of its purchases. From FY 2007 through February
2009, DPW purchased more than $5 million from the prime vendor, or about 66 percent
of the total purchases of $7.7 million.



9
 PRWeb is a Web-based purchase request and commitment submittal system, a direct paperless acquisition
channel between customers and contracting offices. PRWeb allows DPW to purchase local supplies and
materials through existing agreements or normal acquisition contracts administered by CCK.


                                                 30

Prime Vendor Program
The Defense Logistics Agency created the Prime Vendor Program to permit various
organizations to purchase items directly from one vendor without a requirement to obtain
additional quotes. The goal of the Prime Vendor Program is to provide logistical support
at reasonable prices to meet customer requirements when needed. The Defense Logistics
Agency awarded a Maintenance, Repair, and Operations Prime Vendor Contract to
Universal Sodexho in March 2005 for Korea, and DPW was using this contract at the
time of our audit as its prime vendor. The scope of work under the contract includes total
logistics support, maintenance, repair, and operations requirements for military
installations and Federal activities in Korea.

In January 2007, the U.S. Army Installation Management Command-Korea Region,
DPW’s parent organization, implemented a Supply Operations Reform initiative to
realign the supply and procurement functions to reduce existing inventories to a
minimum and adapt a just-in-time supply concept. DPW used the prime vendor as a
major source for acquiring supplies in implementing the just-in-time supply concept,
reducing the amount of supplies it needed to stock in DPW warehouses. The prime
vendor stocks supplies in a warehouse in Korea and provides DPW with supplies when
ordered. DPW has become increasingly dependent on the prime vendor to obtain
material since DPW implemented Supply Operations Reform. Purchases from the prime
vendor increased from 63 percent of total supply purchases in FY 2007 to 70 percent in
the first 5 months of FY 2009.

Supply Acquisition Process
Personnel in the Estimation Branch of the Business Operations and Integration Division
at DPW prepare a bill of materials (BOM),10 which lists all the required items to
complete a particular work order. The DPW scheduler then provides the BOM to the
DPW Supply and Storage Branch (Supply Branch), which reviews the BOM and checks
the availability of the on-hand stock. If the item is stocked, supply personnel issue it to
the DPW shop that will perform the maintenance or repair. If the item is not available,
the Supply Branch determines the method of acquisition among the four methods
previously discussed and purchases the item. When received, the Supply Branch issues
the items to the DPW maintenance and repair shops to complete the work order.

Reasonableness of Prime Vendor Prices
DPW’s use of the prime vendor did not always achieve the best price for the Government
because DPW lacked effective management procedures and controls for reviewing price
reasonableness. DPW purchased $3.1 million in supplies from the prime vendor for the
17 months ended February 2009. The prime vendor procured $2 million of these items
from Korea, and procured the remaining $1.1 million from the United States. We
judgmentally selected 64 sample items with a high unit price, high total purchase cost, or
high purchase frequency. Our judgmental sample of 64 line items procured locally by the


10
  BOM is an aggregate total of materials needed to accomplish a single project or needed to issue materials
to complete multiple service orders.


                                                    31

prime vendor at a total cost of $1,002,376 showed that DPW did not achieve the best
price for the Government. The prices charged by the prime vendor for the sample items
ranged from 5 percent lower to 1,261 percent higher than the cost of purchasing the items
from other sources. Using the quantities purchased for the sample line items selected, we
estimate DPW paid 53 percent more than if it had purchased the items from other
sources, for a potential savings of $347,467.

Management Controls Over Prime Vendor Purchases
A lack of effective procedures and controls for reviewing price reasonableness caused
DPW to pay more than necessary for many items purchased from the prime vendor.
Three major factors contributed to DPW’s not obtaining the most reasonable prices for
items purchased: DPW management thought the prime vendor’s prices had been
negotiated and that price analysis was not required; the Estimation Branch did not
provide accurate estimates; and the Supply Branch did not make concerted efforts to
obtain the most reasonable price.

Management View
DPW management stated that DPW used the prime vendor even if the cost was higher
because of the convenience of having the supplies readily available without incurring a
huge warehouse cost. Managers believed that the high premium price had been
negotiated and that they should normally use the prime vendor’s prices without question.
DPW management stated that other acquisition methods were too complex and
administratively inconvenient to use because they require more paperwork. This view
contributed to the lack of effective procedures and controls to ensure that DPW acquired
supplies at the best prices.

DPW management believed that the use of the just-in-time concept, which included using
the prime vendor to acquire supplies quickly, would eventually save significant costs
related to stocking large quantities of supplies in DPW warehouses. The brochure
published by the prime vendor stated that it could provide the most efficient and timely
delivery. However, the delivery time did not always meet its published standards. An
internal study conducted by the Supply Branch showed that the average prime vendor
delivery time for items purchased locally was 38.6 days from October 2008 through
January 2009, which significantly exceeded the maximum local delivery time of 14 days
stated in the prime vendor brochure.

Estimation Branch: Accuracy of Cost Estimates
The estimators at DPW did not always provide accurate cost estimates. There was no
detailed standard operating procedure (SOP) describing how to make cost estimates
when preparing the BOM. The estimators normally used the Supply 2000 System11
(S2K) for estimating the cost of items for a BOM. The unit costs in the S2K are updated
with the current acquisition cost on the receipt of the purchased item. Because the prime


11
 The S2K is a Web-based supply management software that allows estimators to search for the required
material in the established supply stock database.


                                                 32

vendor was a major supply acquisition source, a majority of prices in the system would
show the prime vendor’s prices rather than the fair market value.

The S2K system administrator for Korea stated that the S2K was originally set up to
allow only the supply technicians to update the unit cost to maintain consistent controls.
If the estimators need to correct unit cost, they must contact the Supply Branch to update
the unit cost in S2K. However, the Estimation Branch chief stated that personnel rarely
requested the Supply Branch to correct the cost. Estimators normally used the costs
shown in S2K to prepare the estimates. Table 13 shows examples of items with BOM
estimates that were significantly higher than the fair market values.

                  Table 13. Examples of BOM Estimates Significantly Higher 

                                 Than Fair Market Value 

                Description               Job Order     BOM         Fair Market   Percent by
                                           Number      Estimate        Value        Which
                                                                                    BOM
                                                                                   Estimate
                                                                                  Exceeded
                                                                                     Fair
                                                                                   Market
                                                                                    Value
Copper tube pipe 1 inch X 21 feet         AOB000118J      $85.51       $42.20        103
Conduit pipe ½ inch X 3.6 meters          ABC000049J      $11.42        $5.80        97
Portland cement 40 kilogram bag           DAN000708J        $8.22       $4.13        99
Air-conditioner unit, 10 ton              AOB000118J    $5,646.75    $3,178.38       78
Air-conditioner unit, split wall mount
                                          ABC000049J    $1,561.21     $886.00        76
type
Gate valve bronze, 2 inch                 DAN000708J      $64.15       $41.97        53
Air-conditioner unit, wall mount type     AAP060598J    $2,555.95    $1,434.00       78
Fan coil unit                             AAP030348J     $512.86      $284.50        80
Air-conditioner unit, split floor mount
                                          AAP060608J    $1,600.92     $789.67        103
type
Transformer 500 kilovolt amps             AAP120107J   $19,117.61    $7,334.35       161
Air-conditioner unit, 5 ton               AAP060578J    $3,962.89    $1,386.90       186
Pre-insulation elbow pipe, 2 inch,
                                          AAP030298J     $579.23      $193.37        200
90 degree


Department of the Army Pamphlet 415-3, “Economic Analysis: Description and
Methods,” August 1992, defines good estimates as those for which accuracy is within
about 10 percent of the actual cost. Also, the pamphlet emphasizes that cost estimates
must be made with care and full knowledge of their limitations.

Army Regulation 420-18, “Facilities Engineering Materials, Equipment, and Relocatable
Building Management,” January 3, 1992, indicates that the BOM is an essential
document for the material coordination functions. The regulation requires BOMs to be as
complete as possible to facilitate supply actions and consider adequate funding prior to


                                                33


submission to the supply branch. Department of the Army Pamphlet 420-06,
“Directorate of Public Works Resource Management System,” May 15, 1997,
emphasizes the accuracy of the initial estimate because the initial estimate is all that a
reimbursable customer12 is willing to pay once the work is approved and funded.
Establishing accurate price estimates is important, especially for reimbursable work,
because DPW reimbursable customers provided a significant amount of the DPW
workload. For example, during FY 2008, DPW received $500,362 for its reimbursement
work orders completed for the customers.

FAR 15.404-1 (b)(2) indicates that the Government may use various price analysis
techniques and procedures to ensure a fair and reasonable price. One such technique
includes comparison of proposed prices with the prices obtained through market research
to come up with an IGCE. The BOM that the estimators prepared could not function as
an IGCE because the BOM came from S2K unit costs that were not based on fair market
values.

Supply Branch: Efforts to Obtain the Best Price
The DPW Supply Branch made little effort to acquire items from the prime vendor at the
most reasonable prices. Specifically, the branch did not actively review the
reasonableness of the prime vendor prices and sometimes decided to purchase despite a
high premium on the prime vendor products.

An interim Supply Branch SOP indicates that all the initial quotes received from the
prime vendor need to be reviewed for pricing. Also, the interim SOP requires the Chief
or Deputy of the Supply Branch to approve each order before the order is placed with the
prime vendor. However, there was no clear guidance on how to review the price
reasonableness in the branch. The branch chief stated that he made random checks of the
ordered items, but he was not able to ensure the price reasonableness of all the items
purchased. The deputy branch chief stated that the branch was aware of the prime
vendor’s high premium, but decided to purchase from the prime vendor because it was
convenient and guaranteed shorter delivery time than other acquisition methods.
Table 14 shows some examples for which the price paid to the prime vendor significantly
exceeded the fair market value.




12
     A customer that reimburses the organization performing the work.


                                                     34

         Table 14. Prime Vendor Purchases That Exceeded Fair Market Value
          Description                   Prime        Purchase          Prime                Fair          Percent
                                        Vendor       Quantity         Vendor              Market           Over
                                         Stock                       Price/Unit*         Value/Unit
                                          No.
Aluminum sliding door set               909917                  1     $3,070.94           $225.63           1,261
Metal sheet 4 feet X 8 feet               72939               439         23.15               5.28              338
Domestic hot water tank                 910684                  1      2,932.66           1,054.83              178
Air conditioner, 6 ton                  910709                  1      7,331.65           2,867.13              156
Sodium fluoride, 25 kilogram              73147               100        $78.01              32.47              140
Aluminum sulfate, 25 kilogram             73146            2000             9.58             $4.12              133
White latex paint, 5 gallon             906202                86         128.64              56.77              127
Light fixture 2 feet X 4 feet             72523               239        167.38              76.43              119
Copper tube pipe 1-1/2 inch X
                                          73913                46        141.98              70.77              101
21 feet
Light fixture, 2 inches X
                                          74568                53        156.05              81.03              93
4 inches
Electricity and magnetism, A-50         907850                  2     16,352.02           8,574.00              91
Metal floor plate                         74071                53        183.65              96.86              90
Pre-insulation pipe, 2 feet X
                                        910634                 24        459.49           $246.92               86
6 meters
Air compressor, 30 ton                  904699                  1     13,844.47           7,467.06              85
Fan coil unit                             75758                19        733.99             413.30              78
*The unit price charged by the prime vendor was the average price charged if more than one item was purchased
multiple times.


Conclusion
This audit did not include the Prime Vendor Program, the contractor’s sources of supplies
for sale to DPW, or administration of the contract.13 Also, we did not audit DPW’s
implementation of the just-in-time supply concept, which significantly reduced the
amount of stock that DPW maintained. Therefore, we are not recommending that DPW
discontinue using the prime vendor as a significant source of supplies. Use of the prime
vendor can save time and reduce the administrative workload required by contracting
personnel. However, the audit has shown that DPW could save considerable funds by
seeking alternative sources for procurement. DPW should establish and enforce SOPs for
the Estimation Branch and Supply Branch that ensure the Government obtains reasonable
prices when purchasing supplies and material. DPW should increase the use of
alternative sources of supply for high-dollar-value items or items frequently purchased
when feasible and practical if significant savings will be realized.


13
 However, as a result of the audit we initiated an audit of the Maintenance, Repair, and Operations Prime
Vendor contract in Korea [Project D2009-D000LZ-0130.000].


                                                        35

Future savings cannot be determined and will fluctuate based on fluctuations in the
Korean Won, prices charged by the prime vendor, the availability of items through other
local merchants, and DPW’s ability to estimate future needs far enough in advance to use
other sources of acquisition. However, the high cost of using the prime vendor for many
items shows a need for continual evaluation of price reasonableness and the use of other
methods of procurement, such as blanket purchase agreements14 for items that are
purchased frequently and expanded use of the GPC, with proper controls to ensure that
the Government obtains the best value.

Recommendation, Management Comments, and Our
Response
C. We recommend that the Director of Public Works, U.S. Army Garrison-
Yongsan, establish and enforce standard operating procedures for the Estimation
Branch and the Supply Branch that ensure the Government obtains reasonable
prices when purchasing supplies and materials. The procedures should include the
following information:

     		 specific criteria for when the branches should obtain pricing from sources
         other than the prime vendor to determine price reasonableness;
     		 detailed instructions for the Estimation Branch to obtain and develop accurate
         estimates of the fair market value for supplies and materials needed in bills of
         materials, and notification of the Supply and Storage Branch to update
         incorrect unit costs in the Supply 2000 System;
     		 guidance on when and how to use sources of procurement other than the
         prime vendor, such as Government purchase cards and other contracting
         vehicles available; and
     		 a requirement to periodically evaluate the reasonableness of costs in the 

         Supply 2000 System and to document the results. 


U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and stated that
DPW has implemented the recommended changes into its supply and estimating SOPs to
screen high-value and large quantity-orders, and publish a new SOP with this information
by April 2010.

Our Response
The Army comments are responsive, and no further comments are required.




14
  A blanket purchase agreement is a simplified method of filling anticipated repetitive needs for small
quantities of supplies and services by establishing charge accounts with vendors to furnish supplies or
services that might be ordered from time to time. These agreements are designed to reduce administrative
costs by eliminating the need for issuing individual purchase documents.


                                                   36

Finding D. Use of Government Purchase
Cards
GPC cardholders did not always maintain adequate supporting documentation for
purchases, ensure proper separation of duties, avoid use of third-party vendors, or obtain
approval from property book officers for certain nonexpendable items. These
deficiencies occurred because the cardholders were not following established guidance,
and available guidance was not sufficient. If the deficiencies are corrected, the
Government will have increased assurance that it is purchasing necessary items at the
most economical prices.

Audit of Government Purchase Card Purchases
Several years ago DPW reduced the use of GPCs as a major source of procurement
because of widespread abuse. DPW used GPCs to purchase emergency or high-priority
items. At the time of our audit, there were nine GPC cardholders within DPW, and all
but one were allowed to purchase a maximum of $8,000 per month. CCK had published
an extensive SOP in August 2005 regarding the use of GPCs (CCK SOP), and DPW
published supplemental instructions to the SOP.

DPW spent $393,243 on 408 GPC purchases made by 9 cardholders during the
17 months ending February 2009, which accounted for 8.6 percent of total purchases of
supplies during that period. We judgmentally selected for further review 40 purchases
valued at $69,235 that indicated potential deficiencies may exist. We found
40 deficiencies related to 33 of the 40 GPC purchases as shown in Table 15.

                     Table 15. Deficiencies Found in GPC Purchases

          Insufficient         Lack of          Use of Third-     Property
         Documentation       Separation of         Party         Book Officer
                                Duties            Vendors        Review and
                                                                  Approval
                13                  7                10              10


Documentation of Government Purchase Card Purchases
Although the majority of GPC purchases audited had adequate documentation, 13 GPC
purchase documents did not provide detailed descriptions of the items or services
purchased or how price reasonableness was determined. Examples follow.

   		 A cardholder purchased a waxing service valued at $1,975, but the documents did
       not include any description of the waxing service or a justifiable need for the
       service.




                                             37


   		 A cardholder purchased two portable latrines totaling $2,307. However, the
       documentation included did not describe how price reasonableness was
       determined. The total cost of these items through another source was $956.

FAR Subpart 4.8, “Government Contract Files,” states that purchase documentation must
be sufficient to constitute a complete history of the acquisition transaction to support the
actions taken and provide a basis for the decision.

The CCK SOP states that cardholders are required to ensure that prices paid are “fair and
reasonable.” It describes various ways to document price reasonableness. Generally a
fixed price in a retail store or a published catalog price can be considered as meeting the
requirement for price reasonableness. Also, the purchase of items or services that are not
commercial or “off-the-shelf” items requires additional documentation describing how
price reasonableness was determined.

The DPW GPC supplemental guidance describes the minimum documents required for
GPC purchases. However, it does not have detailed instructions and examples.
Providing detailed instructions on how to describe items purchased and determining price
reasonableness would provide a better basis for the GPC purchases. Without detailed
written documentation as required by the FAR and the CCK SOP, there is no assurance
that the price is reasonable or that the purchase meets a legitimate Government need.

Separation of Duties
The CCK SOP prohibits cardholders from requesting items that they purchase. The three
fundamental steps in the GPC procurement are identification (requesting), purchase, and
receipt. The GPC holder is only allowed to purchase items. The requester and receiver
must be someone other than the cardholder who makes the purchase. The audit found
seven purchases where the cardholders were also the requesters of the items purchased.
Two examples follow.

   		 A cardholder purchased generator repair parts for $1,858 and signed as the
       requester and receiver.

   		 A cardholder who purchased a fan coil unit for $1,000 signed as the requester and
       receiver.

The separation of duties is a mandatory GPC control to maintain the integrity of the
system and minimize the risk to the Government.

Use of Third-Party Vendors
Both the CCK SOP and the DPW GPC supplemental guidance state that cardholders
should avoid the use of “middle-man contractors” or “third-person vendors” (third-party
vendors) to purchase from merchants who are not able to accept the GPC. Cardholders
and approving officials should actively seek regular dealers. The audit found 10 GPC
purchases where cardholders purchased items from third-party vendors who acquired the
items or services from the original vendor. For example, a cardholder purchased a


                                             38


network distribution terminal including installation from a third-party vendor. However,
the third-party vendor paid another vendor for the item and required installation. Another
cardholder paid a third-party vendor for the rental of a pump truck to replace a sidewalk,
but the third-party vendor rented the truck from the original vendor. The requester of the
rental service stated that DPW used the third-party vendor because the vendor was able to
accept the GPC and that use of that vendor saved time and effort required to find the
regular service provider. Use of a third-party vendor can add to the cost of purchases
because payments to such a vendor would be expected to include an extra profit margin
for the vendor.

Property Book Officer Review and Approval
The CCK SOP states that property book accountability is required for nonexpendable
items having a unit price of $300 or more. Items with a unit price less than $300 may
require property book accountability if they are classified as highly pilferable or of a
sensitive nature. In addition, U.S. Army Garrison-Yongsan Command Policy Letter 4-5,
“GPC Program,” September 14, 2007, requires the cardholder to obtain approval from the
appropriate Property Book Officer, who must verify whether the desired item is already
on hand and whether the item will require accountability. The DPW supplemental
instruction also includes a reminder of this requirement in its Management Control
Checklist for cardholder review. The audit found 10 GPC purchases for which the
cardholder did not obtain the required review and approval by the Property Book Officer.
For example, one cardholder purchased a water pump for $2,232, and another cardholder
purchased a heat exchanger for $2,803 without obtaining the required approvals.

Obtaining review and approval by the Property Book Officer is an important GPC control
to prevent duplicate purchases of items already on hand and possible fraud or abuse, as
well as to ensure appropriate property accountability.

Oversight of Government Purchase Card Purchases
U.S. Army Garrison-Yongsan Command Policy Letter 4-5 requires its Directorate of
Logistics, a subordinate unit of the U.S. Army Installation Management Command-Korea
Region, to develop, publish, and implement internal GPC requirements and procedures.
Also, the letter requires the Directorate of Logistics to conduct semiannual GPC
inspections for organizations within the Garrison, using the checklist included in the
CCK SOP. However, the GPC inspector at the Directorate of Logistics stated that the
past GPC inspections did not identify the four deficiencies discussed in our report
because the GPC review checklist in the CCK SOP did not specifically address these
areas. Revising the checklist to specifically cover these four areas would help ensure that
future GPC inspections would effectively identify deficiencies and prevent them from
recurring.

Conclusion
The audit identified deficiencies that need to be corrected to reinforce DPW management
controls on the use of GPC. These deficiencies occurred because the cardholder and
approving officer did not fully comply with the GPC SOP and its related policies and


                                            39


regulations, and the inspection checklist did not cover the specific requirements. Even
though the GPC accounted for only a small portion of DPW’s total supply acquisitions,
these deficiencies need to be corrected and prevented so that DPW can use the GPC more
effectively and frequently as an alternative supply acquisition method.

Recommendations, Management Comments, and Our
Response
D.1. We recommend that the Director of Public Works, U.S. Army Garrison-
Yongsan:

       a. Revise the “Director of Public Works Government Purchase Card
Standard Operating Procedures Supplemental” instruction to explain how to
describe the item or service purchased and determine price reasonableness.

      b. Re-emphasize through supplemental training or other means to both
cardholders and approving officials the requirements for use and approval of
purchases made with Government purchase cards and the actions to be taken if
guidance is not followed.

U.S. Army Installation Management Command Comments
The Commander, U.S. Army Installation Management Command agreed and stated that
DPW will revise its supplement to the GPC SOP by April 2010.

D.2. We recommend that the Commander, U.S. Army Contracting Command-
Korea, revise the “Commander’s Quarterly Review Checklist for USFK [United
States Forces Korea] GPC Program” (Attachment 10 to the Standing Operating
Procedure for USFK, August 10, 2005) to include specific questions related to
sufficient Government purchase card documentation, separation of duties, third-
party vendors, and property book officer review and approval of required
purchases.

U.S. Army Expeditionary Contracting Command Comments
The Executive Deputy to the Commanding General, U.S. Army Materiel Command
agreed in comments provided on behalf of CCK. CCK will revise the Government
Purchase Card Standard Operating Procedures by March 31, 2010, to include
recommended questions in the Commander Quarterly Review Check List.

Our Response
All comments are responsive, and no further comments are required.




                                          40


Finding E. Documentation of Contractual
Work Performed
DPW did not update the real property records at the completion of contractual work. A
review of 47 completed projects costing at least $25,000 each showed that for 45 projects
DPW did not prepare a DD Form 1354, “Transfer and Acceptance of Military Real
Property,” to enter real property-related transactions in the Integrated Facilities System.
In addition, DPW did not have as-built drawings for 33 of the 47 completed projects.
These deficiencies occurred because DPW did not have adequate procedures and controls
to ensure that its personnel obtained, prepared, and submitted the required
documentation. Additionally, IDIQ contracts needed to be clearer on the requirements
for as-built drawings. As a result, real property records were not accurate, current, or
complete.

Real Property Record Requirements
Department of the Army Pamphlet 405-45, “Real Property Inventory Management,”
September 15, 2000, designated DPW to be accountable for the installation’s real
property. Army Regulation 735-5, “Policies and Procedures for Property
Accountability,” February 28, 2005, requires the real property accountable officer to
maintain property records showing the changes in real property records, which include
DD Forms 1354 and project drawings, which will be kept for the life of the facility.

DPW maintained real property records in the Integrated Facilities System. This is a
standard Army multicommand system made up of three functional subsystems: Assets
Accounting, Facility Engineering Management, and Real Property Maintenance
Activities. The system records and reports an inventory of installation facilities,
conditions, statistical data, and a history of maintenance and operational costs related to
these facilities. Also, the system includes a database for reporting installation-level
operation and maintenance requirements and actual expenditures for the operation and
maintenance of Army real property. The Integrated Facilities System also generates and
provides financial reports of Army real property to the Defense Property Accounting
System. The DPW Real Property Branch was responsible for updating the real property
records in the Integrated Facilities System.

Updating Real Property Records
Review of the 47 projects, which cost at least $25,000 each and were completed under
the General Repair Contract and MATOCs from March 2008 through February 28, 2009,
at a cost of $3.3 million, showed that the DPW Real Property Branch did not have
DD Forms 1354 for 45 of the 47 projects. According to the Real Property Branch Chief,
the Inspection Branch should prepare a DD Form 1354 for all projects completed by
contract, whether the projects involved architectural, mechanical, electrical, or civic
work. Responsible CORs admitted that they did not always prepare DD Forms 1354
because doing so involved extensive paperwork, which was time consuming.
Nonetheless, they stated that they provided most of the missing DD Forms 1354 to the


                                            41


Real Property Branch. However, there was no audit trail available for us to verify
statements from either branch.

Failure to prepare DD Form(s) 1354 also constituted noncompliance with local policy.
The Commander, U.S. Army Garrison-Yongsan, issued a policy letter on March 10,
2008, prohibiting final payment on contracts until the DD Form 1354 was prepared and
transferred to the real property accountable officer. However, the CORs we interviewed
stated that they were not aware of this policy. Therefore, they certified the final payment
without completing the required DD Form 1354. DPW should ensure that the U.S. Army
Garrison-Yongsan policy is properly communicated to and followed by relevant
personnel.

As-Built Drawings
Of 47 projects audited, the Real Estate Branch did not have as-built drawings reflecting
work performed for 33 projects. As-built drawings provide a technical and historical
reference. MATOC contracts clearly stated that the contractor must provide a complete
set of as-built drawings before the COR can approve final payment to be released for a
project. However, DPW did not enforce the requirement.

Additionally, the Real Property Branch Chief stated that CORs should submit as-built
drawings to the Real Property Branch for all completed projects. If the contractor did not
make any changes to the original requirements, the contractor could use the original
drawings that the Government provided to the contractor and stamp them as the as-built
drawings. However, the previous General Repair Contract, for which we reviewed as-
built drawings, did not have a provision requiring the contractor to submit as-built
drawings. And three of the other IDIQ contracts in use during the audit had wording
similar to MATOCs but were unclear on whether the contractor should provide as-built
drawings when no changes were made to the original drawings. The CORs for IDIQ
contracts stated that contractors often made small changes in work performed without
modifying the DOs. In such cases, CORs did not always provide the Real Property
Branch with as-built drawings reflecting the changes.

Without the most current drawings of real property, a DPW estimator stated that he had
difficulty in coming up with accurate estimates for work needed and in determining
whether the requested work should be covered by warranty. Therefore, it is imperative to
have controls in place to ensure as-built drawings are prepared, identified, and maintained
for completed projects.




                                            42


Recommendations, Management Comments, and Our
Response
E. We recommend that the Director of Public Works, U.S. Army Garrison-
Yongsan:

      1. Establish controls to ensure that the contracting officer’s representatives
provide the Real Property Branch with as-built drawings before approving the final
payment for contract work.

       2. Require the Inspection Branch to prepare the DD Forms 1354 for
completed contractual work, and the Real Estate Branch to promptly enter the
necessary information into the Integrated Facilities System.

       3. Request that the U.S. Army Contracting Command-Korea modify
indefinite-delivery, indefinite-quantity contracts to clearly require the contractors to
provide appropriate as-built drawings for all delivery orders.

U.S. Army Installation Management Command Comments
The Commander, U.S. Installation Management Command agreed and established
controls and procedures to ensure that the COR provides the Real Property Branch with
required as-built drawings, and that the Inspection Branch prepares required DD Forms
1354 upon completion of contractual work. Also All IDIQ contract executed through
CCK now require the contractor to submit “as-built drawings” for any modification to the
existing building layout.

Our Response
The Army comments are responsive, and no further comments are required.




                                          43


Appendix A. Scope and Methodology
We conducted this performance audit from February through December 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We interviewed DPW personnel including CORs, estimators, inspectors, engineers, GPC
cardholders and their approving officials, and DPW managers other administrative
personnel to obtain an understanding of DPW’s overall operations, functional
responsibilities, requirements for DOs, inspections of completed work, and internal
controls. We identified regulations and other guidance relevant to our audit through
Internet searches and personal contacts. We conducted preliminary tests and adjusted audit
procedural steps to focus on problem areas.

We judgmentally selected samples of DOs for further review from the six IDIQ contracts
that DPW used for repair, renovation, upgrades, and maintenance. We selected DOs that
were issued, completed, or scheduled for completion during the 17 months ended February
2009. The following table provides additional details concerning the scope of our audit.
                            Scope of Audit of IDIQ Contracts
           Contract              Universe                           Sample
                                      Value                      Value       Criteria for
  Type           Number       DOs                    DOs
                                      ($ millions)            ($ millions)    Selection
General         DABP01­                                                    DOs over
                              169       $2.953          31      $1.356
Repair          03-D-0060                                                  $35,000
                                                                           DOs
Family          W91QVN­                                                    associated with
                              660        3.636         101        0.806
Housing         04-D-0023                                                  painting and
                                                                           roofing
                W91QVN­                                                    The 6 largest
Pavement                        20       1.106           6        1.003
                07-D-0031                                                  DOs
                W91QVN­
Roofing                         27       0.665          27        0.665     All DOs
                07-D-0035

                W91QVN­                                                     All DOs of at
Painting                        42       0.392          21        0.333
                06-D-6031                                                   least $5,000

                                                                            3 largest DOs
                W91QVN­
Fencing                         19       0.419           5        0.314     plus 2 others at
                06-D-6006
                                                                            random

                  Total        937       9.171         191        4.477



                                             44 

We audited the DPW procurement process and DOs; examined supporting documentation
for purchase request packages, which included SOWs, cost estimates, and drawings; and
reviewed COR project files, which included inspection records, material submittals, and
contract conflict and evaluation reports. In addition, we physically verified whether DPW
had received selected supplies and services it paid for. Because the contractor had
completed only limited work for the current General Repair Contract, our audit of work
performed for general repairs focused on the previous General Repair Contract. Our audit
of MATOCs, which totaled $5.6 million, was limited to seven task orders, totaling
$1.4 million—one for each of the seven contractors that performed work during the audit
period.

For the current General Repair Contract, we reviewed the CCK source-selection and price-
evaluation process and regulatory guidance and discussed CCK procurement policies and
procedures with appropriate personnel from CCK. We also compared the prices charged
by the winning bidder for the first 11 DOs, issued by DPW from January through March
2009, with the prices of 8 other technically acceptable bidders that did not win the contract
because their bids for the contract had a higher total price.

The DOs, prices shown in line items for the various contracts, and payments to Korean
vendors were in Korean Won (KRW). When the report shows U.S. dollar payments and
costs, we converted the prices and potential savings into U.S. dollars based on the budget
rates shown in the specific DOs. When comparing line items charged by Korean
contractors, we normally used the actual prices in Korean Won shown in the DOs.

For the prime vendor purchases, we obtained DPW’s prime vendor purchase data on
3,833 local-purchase items totaling $2 million for the 17 months ended February 2009. In
selecting our sample of prime vendor purchases, we sorted the items purchased to obtain
items with the highest unit price or highest total purchase amount, and items frequently
purchased. We combined the results, eliminated duplicates, and created a list of
64 purchase sample items valued at $1 million. For these sample items, we examined the
BOMs and the S2K reports to determine the accuracy of the estimates.

We conducted market research to obtain the fair market values of sample items. Our
market research included contacting local vendors or manufacturers; reviewing the 2008
Korean Monthly Commodity Book published by the Korean Construction Association; and
soliciting expertise from DPW estimators and Supply Branch personnel. For currency
conversion of local items, we used the average exchange rate for the month that DPW
issued the specific orders, using exchange rate data obtained from the 175th Finance
Command at United States Forces Korea. Because we judgmentally selected the 64 prime
vendor samples, the results cannot be projected to the universe. However, the value of our
sample, which was $1 million, indicates that significant savings could be achieved through
use of alternate vendors.

Our audit focused on construction-related (upgrade, renovation, and maintenance) contracts
managed by DPW. Therefore, we did not include contracts awarded by the Far East

                                             45 

District of the U.S. Army Corps of Engineers for DPW because DPW’s involvement in the
procurement process was limited to submitting a request for delivery/task orders and
attending the final inspection. The Far East District was responsible for requirements
documentation, negotiation, award, and oversight of its contracts. We also did not audit
service contracts.

For GPC purchases, we reviewed established controls over GPC use and examined
supporting documentation for individual GPC transactions selected for audit.
We obtained the 408 GPC purchase records totaling $393,243 made by the 9 cardholders at
DPW for the 17 months ended February 2009. We judgmentally selected a nonstatistical
sample of 40 GPC purchases totaling $69,235 that indicated potential deficiencies.

Use of Computer-Processed Data
We did not assess the reliability of the computer-processed data because our use of
computer-processed data was limited to selecting sample DOs to audit. DPW provided a
listing of projects as completed by contracts during our audit period that was an output of
an internal tracking system maintained in a Microsoft Excel spreadsheet. However, some
transactions in the listing did not fall in the audit scope, and a few transactions were
omitted from the listing. Accordingly, we made adjustments to the provided listing to
obtain the universe from which we selected judgmental samples to audit. Because we are
not projecting the results of our audit to the universe, accuracy or completeness of the
listing did not affect our audit findings, conclusions, or recommendations.

Prior Coverage
During the last 5 years, no audits were performed of the U.S. Army Garrison-Yongsan
Directorate of Public Works. However, the U.S. Army Audit Agency completed two
similar audits in other locations in Korea and also issued a Followup Audit Report for those
audits. Army Audit Agency reports are not readily available over the Internet.

Army
Report No. A-2009-0088-FFP, “Followup Audit of Public Works Operations in Korea,”
April 7, 2009

Report No. A-2006-0194-FFP, “Public Works Requirements Contracts, Area I,”
August 24, 2006

Report No. A-2005-0068-FFP, “Public Works Operations, Camp Casey,” July 20, 2005




                                             46 

Appendix B. Summary of Potential Monetary
Benefits
                                                    Amount of
    Recommendations        Type of Benefit*                             Account(s)
                                                      Benefit
    A.1-A.3 and B.1    Economy and Efficiency      Undeterminable         Various
                       and Internal Controls.
                       Maximizes cost
                       avoidance through
                       improved award,
                       execution, and oversight
                       of contracts and delivery
                       orders.
    B.1.h and B.2      Economy and                        $67,497         2172020
                       Efficiency. Recovers
                       costs for work not                                 2182020
                       performed.
    B.1.d and B.2      Economy and                         $4,693         2192020
                       Efficiency. Recovers
                       costs for work not
                       performed.
    B.1.d. and B.2     Economy and                         $7,661      9770100.6022
                       Efficiency. Recovers
                       costs for work not
                       performed.
    B.1.c              Economy and                      $490,000†         Various
                       Efficiency. Uses
                       contract modification
                       that significantly
                       reduced the costs of
                       scaffolding for the
                       Roofing Contract.
    C                  Economy and                 Undeterminable         Various
                       Efficiency. Allows
                       alternate procurement
                       methods if the prime
                       vendor’s costs are
                       unreasonable.
    Total                                               $569,851

*Potential monetary benefits are funds put to better use or questioned costs.
†
 Calculation based on the maximum contract amount of $2 million for the remaining
3 option years of contract W91QVN-07-D-0035. Cost of scaffolding was 46.5 percent
prior to the contract modification ($930,000) and 22 percent after the modification
(-$440,000): 930,000-440,000 = $490,000.




                                           47 

U.S. Army Installation Management Command
Comments




        ,~




        ,_.
    Do•....IKQO      1twpooI,
            too, 8. lOCI      P-': - I).
                          (0 """",,,'        ~ •• , UIi          "'"" Glm..",.'.,....., kottto,

          D _        ...... "" IMI(O..o._. :III Ja"'-Y 2010, ouqoct 6~1i ("",,00,"," 11

     2 I "'.. " . ;_Irof ~ I "' ''' _ _ OIl Odd".... ., a.mo"" Yong • • n, K..... Tloo
    - ,..... oM ~,.,_ III' '""goln II ",,", ~ orl<l . . . 011 1"",,,,,,,,,, ....""'..,.....,, ", •••
    loot ~ <>I'll<» .. 0lI0II10/1, , _ , .. '" ... p.....,•• I... I<4y P _ .......... to 1111 .,Cil:
              • TP'Io   '..,go., 010I.........
    . .... "'" P. ' _)'O'"              _00«"til'__0__;n(0l'I'l) ~ ....... l!snlllcooc_....,.
                                                          po;.....,., .. (2O(IO.~1 Tho . ,.... "'
    ...    ~"" . -         ' '-' Il00 '""" """ ...."..,_ or .,..,...., . .. o! ......_ .... II 1do1U1" '"
    -
    ~   ................ * ..
            ...... "" iOIIg ......,...., -    lit G..-. .. _ _           .. "'"-"'n; ony _'-;01 ""




                                                          48 

                                                                          ~-        -~-. ~




                                                                                             .,,
                                                                                             i·

                                                                                             "


ro....' -
1'01         " «h ,.~ "'-1wr
                    UIi"""1 'p. "      !
                                                  ' ::3
                                           _'- "_,, n 1l 1
                                                         l JdJir-o...
                                                           ~~
l'IIhoJ.AdIoWo>t. VA
KJPtooJ,,,,,",,,,,,-      lVOl._
                     V/l12m."..
                                       t




tlIIlI8I:r:                ~r.
S\JJlIIICTl .• ''_ .. ood' ....
o.m...                          n DoDICI
                                  DoDlO .....
                                          W _  _00        1'I11III<
                                                       .. "         _~
                                                               - WOIb   ~.  u.s., ",.,
                                                                         II U.s   ""'"
o   . . -yV _ _ K_(I"IqjooI
                      lotto (I"lo;o<1 No  D~..I)Ol)a"D.CII !iClJXlC)
                                      No. Dl\'JO\l-llOOQlD.(l   5CJXlCl


   '111/,0 _   ~wIodr'"
I. 'l'IlII_or.boo.,.,..,.ad""",  '«.."""
                                    , 'IhoIlo,jQp   . .. _ d W&b
                                        !Ioo!lod(Qp ....     w lbo
                                                                 tbo ........ lOldit. ::
                                                                     .............
                                                                      !   ..


lho~o(~ W""' .........
1),.--oI_'II''''"                     _ " f<liaoijs l_
                                oo4_''otIW~               .-.!_~ _ F J ..          _
.,  Ift'O'I4o .,..
1<I 1II'I"Ido ......•    ooroIo..Io.._
                         _      ....
                      • .........
                    '"""               ~ •. t&oo!",
                                  _ ......w.,       Mll rIlk _ _ .
                                              ~'" MIItJ'lklo_
                                                                                      .
                                                                                         '

11.. ".
     'nIk.....  ~-
          . . . ,."...u,' ''''''on_      ~'"""'~ MId
                               ... - . . ..-lr..a.-...;.... 1IOIII _
                                                                   _A    .!.
                                                                     _ 1I11,
"' .J,
   ,), D",
       D,I, a.:I,  C, 0.
            11.:1" C  D. 1I.1l0III
                           , Ia<I 1.1
                                   i.1 ...
                                       ·II.l, ",,,,,,
                                           ', .. 00/II ...... ~ n.._
                                                       ,, _ \11 \Il0l_ ._
                                                                       ._      ..




                                                    49 

         0; ....... U!Atr V.. ~   Dnc....1t orPol:ll;' "'"11ft>
                        ( _ _ .. Il0,l)' ..
      DkAfTDIIIH(; Rl l'ffim   !'tot. .~
                                     n_..()MtJ!J.I I - '
                   .,0,. ........ U.!.Ant!,(;.""",V.
ANio . , ....bIIr W_                                 " ", It .....




                                    50 

~1,~JQt.,'!I ""'D OO&Q,!t;tIDQ!MMfHIS

.·_......kt 8      W. _ _ dIM .... I'lIrmor<>fNlli< ..,""'.. U.s, Armf o.u;".".
Y...... _pbWlbo ~ ......""




        I , ~..". ~ II>< JOl_ul -t.rJ .... OW b~ oi .....n"'l.~ltod .."",
                                         o""*""
            v.itll ii. "'*'II1II 11M ...., lot lIeIi...., Of\\<!' lll1lO!!,

        b. R..jUlft """,,"II' ~,. <100"",",""11"" f.. Tho L_ 10 ...... «IDIIo«
            ",o'l ~o.Uo""

        •. u.. mll.tic """ oonom."t"; _            [or i1>:ludj"l! incidorul ,""" ....d! ..
            ouflOI. I., ond ~ ~ .. 00<l """'" tlul >!norm. 1.. tuadon' .... ,..]1
            ". .,,,,,,om.d,
       II. Roqi.IIto """"","" ..tl"" for Ill< '''""ted   _     t ofplrwood \No ....... !O be
           1.... Il.d ...x. 11oIotI.~ ood onodif:, <l<li-:r...lo<. for .;",,6, ... <ii1fm.o""
            ",,_1110 ...._         ood tho .....1_          [n,I:IJ .... ,

       I,   u... ,..  !IIOOI .... ..rr.'~ .. 1IIMhod (LI> InotI>do 0'" or .. ", '""*/)' '-"1>   a.r
            .,.I t.r "'ok) lot ~ i ". , tq,ili<d ''''0,."l1:li1 wt., .......    _ t:li., """
            _hw!; _ _ """ 101,,,,, Jflbo . ... . _                             "'_      00""" IIno
                                                                                         or
            11<.,., "'" .... ".,. ,

       r.   lli>oofl;.... "''''I !he ---."...,maol /iI:II ;" .. "" poW.". .. "" fomtly
            ,.... _ I _ ............aol l.... ~ _ ..........dy.

       .. [.........
             ...... ,...,... I'"
                    "' ~-.l_II'" _Mru..-.._'''
                                  1'0 •• _ , ' - - _ _ • • •• ipir..-. 1n 1lnlln

            ;..... ." I........... ....... Iot po._ "", .....
            _ " _ _ _ 11M _ Jddorio_ io m" I"'« <>I " " ' _' " Ilooo
                                                      ..n...
       - . ~ 1'<'_ I n - " " , Iho"""",",,,, _ I < >
           Iwluollod Iho or... ", ~ ..._ _ b io dcli>ay-. ..
                                                                                        Il10.-._
                                                                             """'r.....boo'-'"
            .... r.MI .""",;..,




                                                   51 

            I\«JIU<"- ~ .....&myo.dm .... iDdIdr ......... , . . . - '"
            bNo..., ........... ............. .. ~"-~ ... of1l>o . . . bo-W
            ' '''-lluo Iloo ,..~ tJ .~
            _ _ • ..,..." ,100 ba. Iot ...r- ~ioo
                                                    """
                                                  IOU""" ..... _ to II< pOim'"




)'OW> "f l~;.   lUI(,!   <_
11- "" .. ' ...... n't!., """ 0(''''OIl1lo. _

                              (boood """,.
                                                 ~ fb< 21 wmplo\oo1 \1000, ,,~
0Id ..... 1loo00~ 0<IUld 1'\11 ...... orlJl' '" H9O,000 ID bOIk, .... lor ... _.a;,u", 1
                                             "",,'m _ 0"$2 mill""n ",. <Il<l"""')


1, Inl' ....""'lo""",'"C_><o)
   IIDll (P•• _
                        ,..()\~, ~ond
                                  .. ;o1,4n    ill ovmo:qm<l1I1IioOl OM'_ I ~IQVN.<11.1l.
                                      $l l ,Js.! !ron. ....,,_, W9IQIN·01·I)-Q(lJj (R..,fi"i
   l~ _""),




                                                 52 

.-
"'"' """'~ .......... Iho F......... 1II>l    01''''_      001 ""","",k>_ fur ><iIIiIin...J
"""''' ,... ..... ~ I II''''' 4ld ... .II"'")" obUbo m. ..... >ob...to. ~~. oad




~                     ..........."e " 1IIaIIhoDltw:orbrNllj.v.'<IIb,t:.J.c..m.o..yqua,
_Iob...:!...r..ro. ~ _ " " p,-.Iw .. fur u.. ~,w,.1ioc 11<_ oo:d IIw; $upI>It
"'....b ................ \.II:nw_<>t<.ias      '_iWiooo ..   \lm ~.,ppiW,o u.d
--.1010. '""1"' .......... _     '''''lucie !Ix rol~ mf""",tioon'
       • """lAo ~ I\)! <I!,.., til<       br_.""""",01<"
                                                _d ,,,,,
           .110 primo ....... '" dotorru!t.. pri<e
                                                            obi. . ~        11."" _ ... _I11III
       • .... ilal lo,"""""'" fur <Joe Eodm&~"," IIrllI<h 10    .,..Iin  ood <10"'*'1> "",wOlO
                                                                                   in
         .IIIIK.. " or,h< ~l mar"'" "ol"" "" JIlI'!'lie. ond matoiUl. "",,~,; billo or
         ",.orl.ll, oad . .in, _ .,., of t... !q'l'ly oGJ S. . . . Il' OfIOh., . pc\ll< ~"";I
           ,on  in tho ~,,""Y 2000 S,....",
       • 1"1d.. ",."" """," .. >:I ho ... '" UK _       ut pmc"" mOIlt 00", th"" til< ~i ...
         • 000"" .IXh '" n.",tltIIlItOt ",""iIuo , .. d. OIl<! "'''''' """":.,'in~ ""h;'i<... ';Iobl<:
           ~
       ,   • "~ol""_ III poriadic:oJly ••01 ... , ,Oo _ b k ..", 01'<0'111. Iho Suppl)'lOOO
           5)'11'" -.I"    010<_, tOo     "~" ,,,




II ECOMMPllM I IQI)S N ,I lI CQMMWDCQ,"""PfTl




                                                     53 

            ·. . f             .: . . WmHfi            j f[
       !F!'     !i            !~~     ~ il l s ~<l:Ei~ ~             1:'             ,..       ~
       rl~ ~ J t.              ~i            ilU I .. ic         !         8'       I."" - ..
       'I e: ,a ~~
       1f;"'11,..,~ f

       ~'l 11 {~               i ii'"        ;I'I· (fill l   r                  "f ~r~
           If af               .'
       .!h                            ". o!"o." ' .
                               !~ • . :Hl"H'l~
                                                                 Ii             }H H I'
                                                                                'u ['
       ~~, ,{~ h
                               .-. p ,~ t-" " i              I I~                 'I       E.
       '!ll I[,f~f ~fi t      'i • . dHli H'
                              i! ~ ll.!! ~!il                ~!!                l · r~;    ,
                                             1e-ji-~
                                                                                if n~.a.
                                             II
                               ~ 0:E! !if~        )0, -(-"~ ," ->               t     .        ~




54 

        .[       !     r
                 r[
           '1 II '       [

        'ii
                                            nh •                 .~             ' It J'
                                                                     l
                              ,.~i' "~ t'[}~Fa                                  tit
        p        6.[     i    !i
        Ilr !. i
                                       ~      !:htld                 i      .t,            rt
          if~f   I       Ig   i.
                              Hf~             !WHH
                                              ~. ! fr ;.[
                                                                     I      h~   F
                                                                            •. ~.(
        ¥            •   •~
        I •                   '. '             It                               , ~t       •
55 

U.S. Army Expeditionary Contracting
Command Comments


                                . ---_.­
                                     _.....    .......          _,.,.,..­
                                       DE!l'AIIT .. a<rOFTttE ...... Y



                                        ~"'''''''''-''




     MEMORASDUM FOIl DODIG. ATm' Mr. DoD31d A-- BIoomrr. Room 711. 400 Amly Sa¥}'
     Drive,~          VA :Z=·4JUo1

                 """"".nO
     I. R~d M<mormdwn.            Do[))(i.   d Doced>ot lUB. SAR

                                                           "'.;...0.;

     3. Tbo AMC poiIIIof CODlllcl i.




                                                    56 

                                                                                 JAN 1 , AI
CCEC_OO



MIlMORA1<DUMTHRj:2!.          .     E ~~. U,s,. NayC~
{".,""a"""," ~1iI1 ~ Pori Be""'., V A now

K>R
"'.,<riel
                                   ....   ""fu.....   ;""o.;..y'o lbe~c.- ... IJ.S.A~
            c--o.. ~ ltfl U!op<I<. Road, """ Bel"';,. VA 22060
SUBJECI' R _ OIl l'Irl>lic W ...b OprnIk>m ., U .s, AtmyGazriooo- V""",", L .....
I'ro;... D2OOiI-fX>JOJ H-Q16 .(0),

1. '"'" U .S, Iumy ~ C<nr><Dlt C<.-.d (FCC) . .. ~d1ll< IIIbj«O dn.fr.
"'J"I'I- """'-_ ,.;u. tbr "-1"ot«i foe ...
.".".,..,. •. Spctif,,~ ...........d .-d
                                                  <_.-, """-
                                         411· Camnodi"l SoJpp>n &;godo


1 . The ElI poltI. aT    <rrol.ro<, .


,-
L - '''''')'0(4 11 · 08' ,
                                                       ~~~~
                                                        lI.ipdl<t (;.-01, liSA
   C"OInmmd     Ro,_                                    CO<IIIMDIlillg
l . llntt ..... J>'''''''.r:''Uepo<t




                                                      57 

                                               f..11;\JM.l.'in IU'LY
                                        0 . , . - ...... .......,
                    , .. '''..n .... Us.......,~ ....'''1O'In<!i.C_
                                       I'n;JI<d No.. D. . . .-J8..tI"-'M
                   ~W ...... ~ ..                       I:S. " r· 7 Gom.o.·Y....-.K_




_-.:lot'"aM,
         . ..1 :..' ViI'tC<C¥
~· K....."
                    11'. _...J!lJul1ito '"""-. ." U.S. "'''''Y
                              c!    Wor.b-, U.j. A""" (iarriulfo . y""" ",,:
                                                I'~ I<
                                                                                          c_~.,~




      I>. 11'",. ,~,.,"" <III ...      ",W,.,,,,,,,iL ,,,I,"'ilf$l,I"/I," ,<III'''''' li~ I.....' .. OI~"
"""""',, ar4 ,,... p,lo!< (6I1J."","        '" "oj.""   prit:""",,,,,,,b/,,,,,,, /0, _   , l.Jt/I.,... J.tJW'~,
l<tJt/I.I,.. _ lry       ' <111'''''IJ. "

.... 1 I . • 1)"   en <OIIt\II"' .,.. ,IU _      .",... Ii< Ill. Cf1C\OI'I ,,",loci !Ix lli91QVN.(O).ll«Ol.

A ,j b, oIll·CSIl poniolly........,.. bcao»< Ibc T~;' onIJ _                                .. ~ ,h_.,."bc""",,
i. ............... PI;"" , ..,. ........... ~ 101", oIl .,,~i \or (".....,.j lIuiklio" Ropolo' mjU,,,"""""
_lit --. "'" ......... _      COlO.""" """'" f"""", ("-I- porriod ~~, . . . . .
........,-11....;",*opue 1«...... pttf_.. .oJ ....... lit DIIAIldetuI.
' " " ' -......... "-J: · W••~w.~C- = '''. U.J.A,...,C_rilt,
C~·KorMI

          .. F.""'_'" . . . _ .. ""n.."6'1" __          UI« ",,'''''''' liM,..,., ..... ~....-..,
          ........ ~~MfIW'" ilt<l<j/ltitt·qw>nIilyCOltltd<U _ , _ _, """'".".
          1wM>tf ... tAt f{Jfd pna.

         Jr..s_ .. ,...".-~_~·n""'-..J,.;a.,""oNIi.­
         < - - ' liM '-< -, ..... ,lot <fin- "'be"i<cl«l

         Co06la00. _ GI,."", ~ ht4t/It<i.-MI~ /ttJtfftIiU..",..,.,""""", 1IJ(.q'"
                                                           ,
         ... " <f}«tiv< "",,~s ............ ,na~ ""Ioala:tcN..oJ "",......t.k. "




                                                         58 

59 

